<html>
<title> - PRISONER RELEASE IN THE DISTRICT OF COLUMBIA: THE ROLE OF HALFWAY HOUSES AND COMMUNITY SUPERVISION IN PRISONER REHABILITATION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





   PRISONER RELEASE IN THE DISTRICT OF COLUMBIA: THE ROLE OF HALFWAY 
      HOUSES AND COMMUNITY SUPERVISION IN PRISONER REHABILITATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2001

                               __________

                           Serial No. 107-23

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-341                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
JOE SCARBOROUGH, Florida             ------ ------
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                Howard Dennis, Professional Staff Member
                  Matthew Batt, Legislative Assistant
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2001....................................     1
Statement of:
    Clark, John, corrections trustee, D.C. Office of Corrections 
      Trustee; Dr. Kathleen Hawk Sawyer, Director, Bureau of 
      Prisons; Charles Ramsey, chief of police, District of 
      Columbia; Edward Reilly, chairman, U.S. Parole Commission; 
      Jasper Ormond, Jr., interim director, Court Services and 
      Offender Supervision Agency; and James Anthony, deputy 
      director, D.C. Department of Corrections...................    73
    Patterson, Kathy, chairperson, Committee on the Judiciary, 
      D.C. City Council; Margret Nedelkoff Kellems, Deputy Mayor 
      for Public Safety and Justice; Laurie E. Ekstrand, 
      director, Justice Issues, General Accounting Office; and 
      Jeremy Travis, senior fellow, Justice Policy Center, the 
      Urban Institute............................................    12
Letters, statements, etc., submitted for the record by:
    Anthony, James, deputy director, D.C. Department of 
      Corrections, prepared statement of.........................   137
    Clark, John, corrections trustee, D.C. Office of Corrections 
      Trustee, prepared statement of.............................    76
    Ekstrand, Laurie E., director, Justice Issues, General 
      Accounting Office, prepared statement of...................    35
    Kellems, Margret Nedelkoff, Deputy Mayor for Public Safety 
      and Justice, prepared statement of.........................    23
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......     9
    Ormond, Jasper, Jr., interim director, Court Services and 
      Offender Supervision Agency, prepared statement of.........   128
    Patterson, Kathy, chairperson, Committee on the Judiciary, 
      D.C. City Council, prepared statement of...................    15
    Ramsey, Charles, chief of police, District of Columbia, 
      prepared statement of......................................   109
    Reilly, Edward, chairman, U.S. Parole Commission, prepared 
      statement of...............................................   116
    Sawyer, Dr. Kathleen Hawk, Director, Bureau of Prisons, 
      prepared statement of......................................    89
    Travis, Jeremy, senior fellow, Justice Policy Center, the 
      Urban Institute, prepared statement of.....................    54

 
   PRISONER RELEASE IN THE DISTRICT OF COLUMBIA: THE ROLE OF HALFWAY 
      HOUSES AND COMMUNITY SUPERVISION IN PRISONER REHABILITATION

                              ----------                              


                         FRIDAY, JULY 20, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella and Norton.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, deputy staff director; Robert White, 
communications director; Matthew Batt, legislative assistant; 
Shalley Kim, staff assistant; Howard Dennis, professional staff 
member; Jon Bouker, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mrs. Morella. I'm going to convene the Subcommittee on the 
District of Columbia for our hearing and welcome you all to the 
fifth hearing of this subcommittee.
    Our issue at this hearing is ``Prisoner Release in the 
District of Columbia: The role of Halfway Houses and Community 
Supervision in Prison Rehabilitation,'' and it's a vital issue. 
It not only affects our Nation's Capital, but it affects the 
communities that are facing the phenomena of prisoners 
returning in numbers from Federal and State prisons due to new 
sentencing guidelines.
    I want to commend all our witnesses for the leadership that 
they have provided on this issue and for sharing with us their 
expertise and concerns. You'll be interested in their 
individual testimonies, and I hope that we can glean some 
solutions from the collective tests.
    Special welcome to all our witnesses: The Honorable Kathy 
Patterson, chairperson of the Committee on the Judiciary of the 
District of Columbia City Council; Margaret Nedelkoff Kellems, 
Deputy Mayor for Public Safety and Justice; Laurie Ekstrand, 
Director of Justice Issues at the General Accounting Office; 
Jeremy Travis, senior fellow, Justice Policy Center, the Urban 
Institute. And these witnesses will comprise the first panel.
    We'll have the second panel comprised of John Clark, 
corrections trustee of the D.C. Office of Corrections; Kathleen 
Hawk Sawyer, director of the Bureau of Prisons; Charles Ramsey, 
chief of police, District of Columbia; the Honorable Edward 
Reilly, chairman of the U.S. Parole Commission; Jasper Ormond, 
interim director, Court Services and Offender Supervision 
Agency; and James Anthony, deputy director of the D.C. 
Department of Corrections. So, again, I welcome everyone again.
    In an opening statement preliminary to hearing from the 
witnesses and the ranking member, I want to comment on the fact 
that more than 2,500 felony inmates will return from prison to 
the District of Columbia this year. That's a significantly 
higher figure than in past years, and it represents the 
beginning of a trend, not merely a statistical anomaly. city 
officials expect a similar number of inmates to leave prison 
each year in the near future. This presents real challenges for 
the District. How does the city reintegrate these inmates back 
into society? How does the city ensure they get proper drug 
treatment, medical services, other assistance? What can be done 
to prevent recidivism, to buck the odds that show as many as 
two-thirds of released prisoners are rearrested within 3 years? 
And, finally, how and where does the city and the Bureau of 
Prisons place additional halfway houses, which have proved to 
be an effective rehabilitation tool?
    There is a shortage, we understand, of 250 halfway house 
beds in the District. An unwillingness among many neighborhoods 
to be home to such facilities exacerbates the problem. I think 
there has to be a public education effort here from both the 
city and the Bureau of Prisons to drive home the fact that 
these prisoners are coming back to the community regardless, 
and if they are not entering a halfway house, then they're 
likely heading right back to the streets and the life-style 
they practiced before being incarcerated.
    And although this subcommittee deals narrowly with 
oversight of the District of Columbia government, it is clear 
that the District is not alone in facing an influx of returning 
prisoners. Nationwide, more than 600,000 inmates are scheduled 
to be released into their communities each year. That's roughly 
1,600 a day. Some will go to halfway houses, some will get drug 
treatment. Most will be supervised by a parole officer. And yet 
studies tell us that most will return to a life of crime. 
Nearly half will end up back in jail or prison.
    While D.C. is indicative of a national trend, it also faces 
some particular obstacles. To begin with, the city, as a 
completely urban jurisdiction, has a higher incarceration rate 
than any of the 50 States. Its prisoners are nearly twice as 
likely than the national average to have prior convictions, and 
they are more likely to have serious drug and/or medical 
problems.
    This is not just a corrections issue. This is a community 
public safety problem, one that has failed to receive proper 
attention nationally, although I must commend the District for 
taking some meaningful first steps in recognizing this problem 
and that it affects the community at large.
    While we know the numbers, we know too little about what 
works in the sense of keeping ex-prisoners out of jail. There 
is no hard substantive data to guide local policymakers on how 
to best cope with ex-inmates in terms of helping them become 
productive members of society, preventing additional crimes, 
and protecting the safety of the general public.
    The unique structure of corrections in the District of 
Columbia, however, provides an opportunity. Felony inmates from 
the District are now sent to the Federal Bureau of Prisons, 
which does a significantly better job than most prison systems 
of assessing and rehabilitating criminals. And the new Court 
Services and Offender Supervision Agency has taken the lead in 
post-correctional supervision.
    We have the mechanisms in place to do a better job of 
tracking inmates from the time they first enter prison to the 
time they are paroled, released, or sent to halfway houses, and 
as such we can begin to learn what types of programs, both 
inside and outside of prison, are most helpful in reducing 
recidivism and ensuring safe communities. The District can and 
should be used as a national model, a national model to examine 
these critical prisoner release and rehabilitation issues.
    I will be considering legislation to use the District of 
Columbia corrections system to determine what are the best 
practices, the best methods for rehabilitating prisoners and 
reducing crime. This hearing is focused on a burgeoning problem 
facing the District that, as I mentioned, the city has in many 
ways been proactive in responding to the issue.
    While the number of halfway house beds in the city is down 
considerably over recent years, the current situation is a far 
cry from 1997 before the Revitalization Act when the city 
stopped using its halfway houses and simply placed returning 
felons on a bus from Lorton and dropped them directly into the 
community.
    Although the subcommittee deals narrowly with oversight of 
the District of Columbia, it's clear that we are not alone in 
facing this influx of returning prisoners, and we are going to 
be looking at that issue too. The new Court Services and 
Offenders Supervision Agency has also shown some early success 
with its commitment to getting more ex-prisoners into 
appropriate drug treatment programs and its collaboration with 
police and parole offices. More must be done. We're going to 
hear about that today.
    I look forward to hearing from our witnesses and working 
with Congresswoman Norton, other members of this subcommittee, 
and the District's leadership in dealing directly with the 
problem that faces our Nation's Capital and other communities 
across the Nation.
    [The prepared statement of Hon. Constance A. Morella 
follows:]

[GRAPHIC] [TIFF OMITTED] T6341.095

[GRAPHIC] [TIFF OMITTED] T6341.096

    Mrs. Morella. So it's now my privilege and pleasure to 
recognize the ranking member of the District of Columbia 
Subcommittee, Congresswoman Eleanor Holmes Norton, for her 
opening statement.
    Ms. Norton. Thank you, Madam Chair. This hearing is 
especially welcome and is surely one of the most important 
hearings we have had since the new Chair assumed her role, and 
I thank our Chair, Connie Morella, for calling the subcommittee 
to hear today's witnesses.
    Halfway houses for pretrial defendants and for parolees and 
offenders on supervised release have raised community anxiety, 
although ironically under their current Federal Government 
management, these halfway houses have significantly reduced 
criminal activity. However, without a forum such as today's 
hearing to lay out the particulars and hear problems, 
neighborhoods have resisted such facilities.
    The reasons for community angst arise not from the new 
system under Federal supervision, but from the old District-run 
haphazard halfway houses. Under the city's supervision, halfway 
houses became so well known for escapes, faulty supervision, 
and recidivism that the city itself discontinued using halfway 
houses altogether. The result, however, was the proverbial 
``from the frying pan into the fire'' offenders return to our 
neighborhoods with little or no supervision and without the 
transitional support that is necessary to give offenders a 
chance to find employment and resist substance abuse and 
criminal activity.
    Enter the Revitalization Act of 1997 which transferred 
responsibility for offenders to the Federal Government as the 
city requested. Inevitable issues arise in a transition to any 
system, but it is already clear that the new system under new 
management is superior to what it replaced. Instead of Lorton 
Prison, with its long documented history of abysmal conditions 
and reputation as a factory for crime, offenders now are 
supervised by the U.S. Bureau of Prisons, perhaps the best and 
most progressive prison system in the country.
    Instead of pretrial or post-release--a post-trial release 
into the community with no monitoring, or with oversight by 
overworked parole officers, ill equipped to provide job and 
other transitional support, a new, professionally staffed, 
well-funded agency, the Court Services and Offenders 
Supervision Agency [CSOSA], was established in 1997. CSOSA 
provides an impressive array of services to ex-offenders for 5 
years, on the average. CSOSA--none of which were available in 
the old system, including frequent drug testing, substance 
abuse treatment, life skills training, and job referral.
    In the past, by leaving ex-offenders to fend for themselves 
without a closely monitored and structured way back to normalcy 
and to a job, the District was virtually inviting people 
released from prison to return to the line of work they may 
have known best: criminal activity.
    There is no way to keep people who were offenders from 
coming back to their home communities, and given what many 
offenders were born into, how they were raised, and the 
opportunities denied them, no community is free of 
responsibility for the conditions that lead to crime.
    Now that we have the Bureau of Prisons and CSOSA as a way 
to hold offenders responsible for leading productive lives, and 
the District now has a way that takes its responsibility for 
reentry of these Washingtonians, it must be acknowledged that 
the city has a considerable advantage because this occurs at no 
cost to the city, because state-of-the-art services to control 
and improve offender behavior are now paid for by the Federal 
Government.
    The city asked for this change in responsibilities and 
costs, and the Federal Government agreed. Both must take this--
these shared responsibilities seriously.
    Perhaps the most important outstanding issue is the 
development of a relationship, a real partnership between the 
Federal sponsors of these important services and the 
communities in which they must necessarily be placed.
    This is an enormous and unprecedented challenge. Never 
before has the Federal Government assumed the cost and 
responsibility for pretrial offender and ex-offenders of an 
independent jurisdiction. It will require skillful leadership 
from the city and its community leaders on the one hand, and 
sensitive action and response to often delicate neighborhood 
concerns by the BOP and CSOSA on the other.
    Many of these concerns have been brought to me and my 
office by city and community leaders during this period of 
transition. That is not where these issues should be resolved. 
Both the city and the Federal agencies have shown that they 
have the attitudes, approaches, and capacity to make their 
unique relationship work. What is not clear is that a smoothly 
running system is in place.
    This has already been shown--this much has already been 
shown. District residents are considerably freer from offender 
criminal activity now that release is to highly structured 
halfway houses rather than to the community, largely 
unmonitored, as before. The evidence was immediately clear as 
soon as CSOSA assumed responsibility.
    From May 1998 to January 2001, arrests of offenders was 
lowered by an astounding 75 percent monthly, and a surely 
unintended experiment, control experiment, the rate of new 
arrests has increased as CSOSA has found difficulty finding 
halfway house space. The District is cutting off its nose to 
spite its face. Still the rate of new arrests even now is 50 
percent lower than it was before CSOSA took over.
    I just hope, if I may say, that we don't have to wait until 
the crime rate is all the way back up and then everybody runs 
in to say how come these folks are reoffending. They're 
reoffending because we are offending by not doing our job as a 
city to find places for these Washingtonians.
    We'd better face it. You can't put them in Maryland or 
Virginia. These are our children, our young people, and much 
that has happened to them in the system is our fault. And if 
many of us were born into the conditions many of them were born 
into, we would have had an awfully hard time not becoming 
offenders ourselves. So the NIMBY approach to these young 
people entering the city when the costs of state-of-the-art 
services are being provided by the Federal Government is simply 
unacceptable.
    The clear documentation of the superiority of the new 
system must be better used to inform the community and to get 
the necessary space to provide these crime-reducing services. 
The dual jurisdiction responsibilities of the District and the 
Federal Government must be rescued from ad hoc neighborhood-by-
neighborhood controversy to a new system, beginning with 
wholesale reeducation of residents about the new system, city-
wide allocation of facilities and services on a fair-share 
basis without overconcentration in specific neighborhoods, 
preparation and consultation with communities and sensitivity 
not only to offenders but to the concerns of the law-abiding 
citizens who must receive this population into their 
neighborhoods.
    Because so little is even known, much less understood, 
about the responsibilities and the new services, today's 
hearing is especially important. I believe we should regard 
this hearing as a jump start to improving the efforts and the 
responsibilities that we will insist that the Federal 
Government and the city now undertake with new and focused 
energy to make the new system work with new understanding from 
residents and new behavior from offenders.
    Thank you, Madam Chair.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T6341.097

[GRAPHIC] [TIFF OMITTED] T6341.098

[GRAPHIC] [TIFF OMITTED] T6341.099

    Mrs. Morella. Thank you, Congresswoman Norton. I'm now 
going to commence with our first panel, and if I might ask you, 
in accordance with the policy of the committee and the 
subcommittee, if you'll stand and raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will demonstrate an affirmative 
response. We'll start off with you, Councilwoman Patterson, and 
we would like to allocate you about 5 minutes for your 
testimony so there's time for questioning on the second panel, 
and your entire testimony will be included in the record. Thank 
you.

 STATEMENTS OF KATHY PATTERSON, CHAIRPERSON, COMMITTEE ON THE 
JUDICIARY, D.C. CITY COUNCIL; MARGRET NEDELKOFF KELLEMS, DEPUTY 
   MAYOR FOR PUBLIC SAFETY AND JUSTICE; LAURIE E. EKSTRAND, 
DIRECTOR, JUSTICE ISSUES, GENERAL ACCOUNTING OFFICE; AND JEREMY 
    TRAVIS, SENIOR FELLOW, JUSTICE POLICY CENTER, THE URBAN 
                           INSTITUTE

    Ms. Patterson. Thank you, Madam Chair. Thank you, 
Congresswoman Norton, for the opportunity to testify today. I 
am Kathy Patterson, the chairman of the Council's Committee on 
the Judiciary and the representative of ward 3. I regret that 
much of what I have to share with the subcommittee could be 
characterized as further statements of the problem rather than 
a clear and convincing description of solutions.
    You will hear today from Corrections Trustee John Clark and 
others that we have insufficient bed space in the District of 
Columbia to accommodate halfway houses as transitional options 
for District felons returning home from prison. We have 
insufficient bed space for pretrial detainees for whom such 
placements are deemed appropriate, and insufficient bed space 
for sentenced misdemeanants.
    We may have insufficient bed space in the D.C. jail, but 
few officials, apparently, wish to say that one out loud. All 
relevant numbers seem to be going up. I have been convinced by 
information shared by the corrections experts that you will 
hear from today and from research I have seen that halfway 
houses are a good public policy for prisoners returning home 
from prison. I've been persuaded that pretrial detention is an 
appropriate option for some portion of the pretrial population 
in the District, and commend my colleagues on the Criminal 
Justice Coordinating Council for their efforts in this area.
    Preliminary statistics prepared by the Court Supervision 
and Offender Services Agency indicate a decline in the rearrest 
rate for those released from prison. At the same time, both the 
recent General Accounting Office report, ``Prisoner Releases,'' 
and the Urban Institute's ``From Prison to Home'' underscore 
the need for comprehensive research on what works best in terms 
of prisoner reentry.
    What I can bring to the discussion today that I hope will 
be of value is the perspective of the District of Columbia 
Council on some of the underlying issues. As you may be aware, 
earlier this year the Council rejected a proposal by Mayor 
Williams to renovate building 25 on the D.C. general campus for 
a 200-person halfway house as well as administrative offices 
for the Department of Corrections.
    The Judiciary Committee also rejected an alternative that 
would have provided, instead, for up to 100 female 
misdemeanants in the renovated building. The Judiciary 
Committee action was based on widespread and vocal community 
opposition to the Mayor's proposal.
    What the Council did request of the Mayor was a 
comprehensive plan to address the need for community 
correctional facilities. In Budget Request Act language, the 
Council precluded the expenditure of capital funds to renovate 
facilities in the D.C. general campus area, ``until such time 
as the Mayor shall present to the Council for its approval a 
plan for the development of census tract 68.04 south of East 
Capitol Street, Southeast, and the housing of any 
misdemeanants, felons, ex-offenders, or persons awaiting trial 
within the District of Columbia.''
    The specific prohibition is attached to a particular 
location on Capitol Hill, but the plan requirement is much 
broader. The Council, I believe, adopted this requirement as a 
way of pressing the administration to come forward with a plan 
for locating community correctional facilities, a plan that 
would presumably encompass the true need for community 
facilities and also reflect the competing interests that come 
to bear, economic development interests, neighborhood 
revitalization interests, and so forth.
    I do agree with a sentence that I lift from Mr. Clark's 
testimony you will hear later this morning, when he states that 
the lack of halfway house beds should be viewed as a basic 
threat to public safety.
    We have a great deal of work to do as public officials in 
building a case for community correctional facilities within 
District neighborhoods. There are already many of these 
facilities, and some of the older, smaller, well-managed 
halfway houses have become an integrated and accepted part of 
their communities.
    This is a message we have heard too little in recent 
months. At the same time, there's a recognition that community 
concerns about who will be living in their midst have to be 
addressed accurately and frankly.
    At the same time this spring that Council members raised 
concerns about the particular proposal by the administration 
regarding a new halfway house space, my colleagues introduced 
legislation to create a halfway house site selection panel. 
That bill, authored by Council Members Phil Mendelson and 
Sharon Ambrose, would establish a correctional facility site 
selection advisory panel with the purpose of, ``preparing 
comprehensive recommendations to the Council that identify 
tracts of land suitable for correctional facilities within 
appropriately zoned sections of the District that safeguard the 
health, safety, and welfare of residents and businesses.''
    The bill includes a public hearing requirement and notes 
the need to work in consultation with the Department of 
Corrections, the Court Supervision and Offender Service Agency, 
and the Departments of Consumer and Regulatory Affairs, Public 
Works and Health.
    Other jurisdictions have similar site selection advisory 
panels, and their chief attraction is the possibility of 
bringing some measure of objectivity into the discussion and, 
frankly, removing some of the politics from the discussion. The 
legislation is before the Judiciary Committee and we expect to 
take it up this fall.
    At the same time, I would note that there is nothing that 
prevents the District government from moving forward with the 
same approach, putting such an advisory panel into place 
through Executive order, for example, so that the task of 
crafting site selection criteria can begin much sooner.
    As Mrs. Norton noted in a hearing before the panel in May, 
the Council Judiciary Committee hosted a briefing on halfway 
house issues for Council members, including presentations from 
the Department of Corrections and the Bureau of Prisons. It was 
a very useful discussion, but useful in the main in signaling 
the large amount of work ahead.
    Tasks that remain undone are difficult ones: educating the 
public on the value of community correctional facilities and 
finding the political will to advocate in support of such 
facilities.
    District of Columbia residents returning home from prison 
are our constituents. They are coming home, not arriving on a 
new planet. Their families are here. Their futures, we hope, 
are here, and should include gainful employment and 
contributions to the community. We do ourselves and the 
District residents a disservice by failing to recognize the 
value of transitional facilities to sound criminal justice 
public policy.
    Thank you, and I would be happy to answer questions.
    Mrs. Morella. Thank you very much, Chairwoman Patterson.
    [The prepared statement of Ms. Patterson follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.001
    
    [GRAPHIC] [TIFF OMITTED] T6341.002
    
    [GRAPHIC] [TIFF OMITTED] T6341.003
    
    [GRAPHIC] [TIFF OMITTED] T6341.004
    
    [GRAPHIC] [TIFF OMITTED] T6341.005
    
    Mrs. Morella. We'll now hear from Margret Nedelkoff 
Kellems, the Deputy Mayor for Public Safety and Justice. Thank 
you.
    Ms. Kellems. Good morning, Chairwoman Morella and 
Congresswoman Norton. I'm Margret Kellems, the Deputy Mayor for 
Public Safety and Justice. I appreciate the opportunity to 
testify before you today and thank you for your focus on this 
important issue of prisoner releases in the District and the 
role of halfway houses and community supervision in prisoner 
rehabilitation.
    Managing offenders as they reenter communities and prepare 
for productive lives is not a new challenge; however, it is one 
which is growing in scale as the numbers of offenders returning 
to our community grows as the result of high incarceration 
rates of the past decades.
    As other panelists here today have and will testify, we 
expect about 2,500 offenders to return to our communities 
before the end of this calendar year. Recognizing this, the 
District has prioritized the development of an enhanced system 
of reentry services for offenders during fiscal years 2002 and 
2003.
    As I offer my written testimony into the record, I would 
like to take an opportunity to highlight some of the common and 
key elements that are found in the statements of many of 
today's panelists.
    I will also briefly outline our next steps. The first and 
most prevalent theme, as you mentioned at the outset, 
Chairwoman, and you will hear from most of the panelists, is 
that the District has an insufficient amount of halfway house 
bed space to accommodate the large number of reintegrating 
offenders returning to our communities. The importance of 
structured transitional housing for reintegrating offenders is 
not in dispute in this or in any city. However, as other 
panelists will also point out, it is essential that the 
District achieve the political will and the community support 
to site these facilities.
    Mayor Williams is fully committed to working in partnership 
with our Council, with our criminal justice stakeholders, and 
with the community to find appropriate and acceptable locations 
for halfway houses and other community-based residential 
facilities such as group homes and substance abuse treatment 
facilities. We are already beginning this process, but we 
certainly have a long way to go.
    Second, many of the panelists today will point out that 
transitional housing is only one aspect of an effective reentry 
strategy for reintegrating offenders as well as for pretrial 
defendants. The other critical aspects of an effective 
community supervision model include drug testing and treatment, 
mental health services, job training and employment 
opportunities, and intensive community-based supervision by 
police and by supervisory officers.
    Of course, halfway houses are a vital component of the 
offenders' transitional period, providing a structured 
environment for offenders who are used to the highly regimented 
institutional life to reacquaint themselves with the challenges 
of community life. Additionally, as offenders flow through 
halfway houses, it provides public managers an opportunity to 
assess their needs and bring resources to centralized 
locations. But the other elements of the strategy are equally 
important.
    The absence of these reentry support services only 
increases the probability of recidivism which has both social 
costs for the communities and direct costs to the criminal 
justice agencies.
    For these reasons, it is important for the government 
agencies to make investments in these services for offenders, 
reducing the overall cost of their return. As the 
Revitalization Act shifts our justice responsibilities, we are 
extremely supportive of the Court Services and the Offender 
Supervision efforts to provide these much needed resources, 
particularly in the area of substance abuse testing and 
treatment.
    We have seen the positive impact of these programs on 
public safety and on the crime statistics in the District. But 
even with all of the support structures, we must not lose 
sight, however, of the fact that offenders are individuals who 
have already demonstrated a capacity to violate the laws.
    Decades of experience have taught us that incarceration 
does not deter all future criminal activity. So consequently, 
we must closely supervise and provide a system of incentives 
and disincentives to offenders under community supervision to 
lead law abiding lives. This entails, among other things, 
periodic drug testing, multiagency supervision within the 
community, restricted freedoms such as home detention or 
regular reporting to a supervising agency, and swift 
enforcement for violations of parole conditions or other 
conditions of release.
    Currently in the District we face a situation unlike that 
of any other jurisdiction in the country. The separations of 
functions and jurisdictions within the District resulting from 
the Revitalization Act has made development of a comprehensive 
system of management a challenge.
    Our success to date, though, gives rise to great optimism. 
In fact, the third common element in many of the testimonies 
today is the acknowledgment of our progress in working together 
as a team to effectively manage the offender populations in our 
city.
    Most notably, CSOSA has demonstrated its willingness and 
ability to collaborate with District agencies to develop 
integrated support and supervision services. In November 1998, 
the Metropolitan Police Department and CSOSA began a pilot 
partnership in one geographic area in which they conducted 
joint supervision activities and home visits. In that area 
there was a 35 percent reduction in reported part I crimes 
within weeks of implementation. Because of the success of this 
program, it is being expanded citywide.
    Another example of our success is found in the Interagency 
Detention Work Group chaired by the corrections trustee, and 
comprising principals from corrections, BOP, CSOSA, the 
Pretrial Services Agency, the U.S. Parole Commission, Superior 
Court, and the Mayor's office. This work group has made great 
progress in developing solutions to a short-term capacity 
problem within halfway houses in the District.
    These examples demonstrate not only a willingness but also 
a capacity among criminal justice agencies in D.C. to work 
together to manage offenders that are coming back into our 
communities. It is this collaborative spirit that is giving us 
the foundation for moving forward, building on success, 
leveraging resources, and planning for an even more robust 
range of services. As we move forward in enhancing our reentry 
system, these programs and existing relationships will be 
assets to us.
    Before I close I would like to very briefly outline how we 
are planning and seeking to develop a model reentry system in 
D.C. Next week, my office, in partnership with CSOSA and the 
Metropolitan Washington Council of Governments, is cosponsoring 
a symposium on the vision for integrated housing, employment, 
treatment services, and supervision of offenders in the 
District. It is our intention to not only involve the criminal 
justice agencies represented here, but also community 
organizations, employers, and service providers.
    One of the important outcomes of this meeting will be the 
development and submission of an application for a Federal 
grant of approximately $3 million to enhance reentry system for 
young offenders.
    We have also earmarked an additional $650,000 of current 
funds to support the development of a sustainable system. In 
these ways we are not only planning for the development of a 
coordinated and improved system, but we are also beginning to 
resource that system. Certainly all of the members of the 
justice community, our elected officials, and the community at 
large recognize the need for an infrastructure and an operating 
model that can support and manage the needs of ex-offenders, 
the pretrial and probation populations.
    I'm optimistic about our likelihood of success in building 
this system. While there are difficult decisions to make and 
scarce resources to be marshaled, the payoffs in increased 
public safety and increased human capital in our city are 
great.
    I appreciate the opportunity to speak before you and I 
would also be happy to answer your questions.
    Mrs. Morella. Thank you, Ms. Kellems.
    [The prepared statement of Ms. Kellems follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.006
    
    [GRAPHIC] [TIFF OMITTED] T6341.007
    
    [GRAPHIC] [TIFF OMITTED] T6341.008
    
    [GRAPHIC] [TIFF OMITTED] T6341.009
    
    [GRAPHIC] [TIFF OMITTED] T6341.010
    
    [GRAPHIC] [TIFF OMITTED] T6341.011
    
    [GRAPHIC] [TIFF OMITTED] T6341.012
    
    [GRAPHIC] [TIFF OMITTED] T6341.013
    
    [GRAPHIC] [TIFF OMITTED] T6341.014
    
    [GRAPHIC] [TIFF OMITTED] T6341.015
    
    Mrs. Morella. Now I'm pleased to recognize Laurie Ekstrand, 
who is the Director of Justice Issues at the GAO, the General 
Accounting Office. Welcome.
    Ms. Ekstrand. Thank you, Chairwoman Morella and 
Congresswoman Norton. Thank you for inviting me to discuss the 
findings of our recent work on prisoner releases and 
reintegration programs. Our report emphasizes the significance 
of these issues for the Nation. My testimony also includes some 
information that relates to the importance of the issues for 
the District of Columbia.
    Both criminal justice policies and other factors have 
resulted in high national incarceration rates in recent years, 
bringing our total prison population to 1.3 million inmates in 
1999. The incarceration rate for the District of Columbia 
exceeds that of any State in the Nation. In fact, it is 2.8 
times greater than the national average. Almost all inmates 
will be returned to communities at some point.
    Nationwide, the number of inmates being released to 
communities surpassed the half million mark in 1998 and it is 
likely to stay high--at high levels for some time to come.
    Unfortunately, many of those who are released will return 
to prison and in many cases have just a brief period of street 
time between incarcerations. Although current national data are 
limited, available indicators seem to show that recidivism 
rates tend to hover around 40 percent. While we don't have a 
recidivism figure for the District, some available data seem to 
indicate that rates may even be higher.
    According to testimony before the Subcommittee on the 
District of Columbia, Committee on Appropriations, last year, 
98 percent of all adult probationers had prior convictions, 
almost twice the national average of 50 percent. In relation to 
drug use, about 57 percent of Federal and 70 percent of State 
inmates reported having used drugs regularly before prison, and 
this is according to a 1997 prisoner survey.
    In relation to D.C., a June 2000 National Institute of 
Justice report indicated that 69 percent of adult males 
arrested in the District tested positive for at least one type 
of drug in 1999. This figure was 5 percentage points higher 
than the median rate for comparable arrestees in the 34 urban 
sites covered by the report.
    Although not all drug users may need treatment, our 
analysis of 1997 prisoner survey data indicated that for those 
scheduled to be released within 12 months, 33 percent of 
Federal and 36 percent of State inmates participated in 
residential inpatient treatment for drug or alcohol abuse. In 
terms of other in-prison programs that help prepare inmates for 
self-sufficiency after release, our analysis of 1997 data for 
soon-to-be-released inmates show that about a quarter of both 
Federal and State inmates participated in vocational training 
programs, 11 percent of Federal and 2 percent of State inmates 
worked in prison industry jobs, and 37 percent of Federal and 
12 percent of State inmates participated in pre-release 
programs.
    As has already been discussed and is well known, D.C. 
prisoners are almost all in Bureau of Prison facilities at this 
point, and all will be by the end of the year. BOP intends that 
its inmate preparation for release involves all three phases of 
the criminal correctional system: the in-prison phase, a 
transition to the community and community-based halfway house 
setting, and a period of community supervision.
    In response to the growth in prisoner releases, the Federal 
Government has designated about $90 million for two grant 
programs intended to provide support in communities for 
offenders' releases from State prisons, juvenile correction 
facilities, and local facilities housing State inmates.
    A joint effort of the Departments of Justice, Labor and 
Health and Human Services, the first of these two grants, the 
Young Offender Initiative Reentry grant program is soliciting 
applications now. Although there are some technical and 
administrative factors that would need to be addressed in 
relation to the District's participation in this grant program, 
they do not seem to be insurmountable. Nevertheless, this is a 
competitive grant program and only those jurisdictions with the 
strongest grant applications are likely to be awarded funds.
    This concludes my oral statement, and I will of course be 
happy to answer any questions you may have. Thank you.
    Mrs. Morella. Thank you, Ms. Ekstrand.
    [The prepared statement of Ms. Ekstrand follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.016
    
    [GRAPHIC] [TIFF OMITTED] T6341.017
    
    [GRAPHIC] [TIFF OMITTED] T6341.018
    
    [GRAPHIC] [TIFF OMITTED] T6341.019
    
    [GRAPHIC] [TIFF OMITTED] T6341.020
    
    [GRAPHIC] [TIFF OMITTED] T6341.021
    
    [GRAPHIC] [TIFF OMITTED] T6341.022
    
    [GRAPHIC] [TIFF OMITTED] T6341.023
    
    [GRAPHIC] [TIFF OMITTED] T6341.024
    
    [GRAPHIC] [TIFF OMITTED] T6341.025
    
    [GRAPHIC] [TIFF OMITTED] T6341.026
    
    [GRAPHIC] [TIFF OMITTED] T6341.027
    
    [GRAPHIC] [TIFF OMITTED] T6341.028
    
    [GRAPHIC] [TIFF OMITTED] T6341.029
    
    [GRAPHIC] [TIFF OMITTED] T6341.030
    
    [GRAPHIC] [TIFF OMITTED] T6341.031
    
    Mrs. Morella. Now we'll hear from Jeremy Travis. Thank you 
for coming.
    Mr. Travis. Good morning, Chairwoman Morella and 
Congresswoman Norton. I'm very honored to be invited to testify 
before your subcommittee this morning, and I commend you for 
undertaking this review of a difficult and timely issue, one 
that is of great concern, understandably, to the residents of 
the District.
    Let me first introduce myself and my organizational 
affiliation. I'm a senior fellow with the Urban Institute, 
which is a nonpartisan, nonprofit organization based here in 
Washington, and I'm affiliated with the newly established 
Justice Policy Center at the Urban Institute. And prior to that 
I served as Director of the National Institute of Justice in 
the prior administration for 6 years, and I now lead a team at 
the Urban Institute that is developing a national policy and 
research agenda on this issue, the issue of prisoner reentry. 
And last month we published a monograph entitled, ``From Prison 
to Home'' that you were kind enough to refer to.
    I don't pretend expertise on the issues involving the 
District, but I have been involved in both my current and prior 
position in criminal justice reform efforts in the District, 
but I hope this morning that my testimony can help put some of 
these issues in the national framework, and I want to provide 
as well some--an analytical approach for thinking about where 
we go from here.
    So I wish to make in the time allotted three points: First, 
the phenomenon of prison reentry in the District of Columbia is 
unique in the Nation both because of the distinctive nature and 
the changing nature of the institutional arrangements for 
managing reentry and because of the high level of imprisonment 
in the District. This changing nature of the District's 
criminal justice system presents, as others have--have already 
testified, both risks and opportunities for effective reentry 
management.
    Second, the current approach to prison reentry being 
developed by the responsible agencies in the District in my 
view reflects the key principles of effective reintegration; so 
in my view, a solid foundation is being constructed.
    Third, to be effective, the agencies involved should adopt 
a common mission statement that reflects the principles of 
effective reentry, and should be asked to develop performance 
measures based upon those principles.
    Because other witnesses have and will cover the first two 
points, I'll touch on them briefly and focus my attention on 
the third. Clearly, the criminal justice system in the District 
is unique and is undergoing significant changes, and these 
changes will affect the nature and the composition of the 
reentry population within the District.
    Parole decisions are now being made by Federal, not a 
District entity. Preparation for release is now the 
responsibility of a Federal, not a local agency, and prisoners 
are now being held in Federal prisons as far away as New Mexico 
and Arizona, far removed from the families and other support 
systems that are essential to effective reintegration.
    Supervision is now the responsibility of a new agency, 
Court Services and Offender Services Agency, that has a much 
broader mission. So it's understandable that in this complex 
and shifting environment, there are, as the Deputy Mayor 
alluded to, significant challenges to developing effective 
integration policies.
    There's another challenge that we must acknowledge, that 
the chairwoman alluded to in her opening statement, that the 
level of imprisonment and therefore the scale of the reentry 
phenomenon is very high in the District. In 1999, slightly over 
1,300 of 100,000 District residents were incarcerated, which 
compares to a national average of 476; and the number of 
inmates from the District who are incarcerated has increased by 
15 percent over the past 2 years to slightly over 10,000, a 
prison population the size of that in Massachusetts or Nevada. 
And according to BJS data, there are approximately 600--I'm 
sorry--6,000 people under supervision in the District, the same 
as the parole population of the States of Virginia or Arkansas. 
And the number coming home, 2,500 prisoners returning to the 
District this year, is a prisoner flow the equivalent of that 
found in New Mexico or Oregon.
    So this is a significant phenomenon to deal with, and it 
impacts, as both Members of Congress alluded to, has a 
disproportionate impact on the neighborhoods of the District, 
neighborhoods already facing other enormous social problems.
    The reach of the criminal justice supervision has also 
consequences for our pursuit of racial justice. Ninety-seven 
percent of the District's prison population is African American 
in a District that is nearly 40 percent white. And on any given 
day, nearly half of the young African American men of the 
District are in prison or jail or on some form of probation, 
parole, or other pretrial release. So this is only to restate 
the point that this is a very important and difficult set of 
issues that the committee is addressing this morning.
    The second point is the District of Columbia's approach to 
reentry in my view is--reflects sound reintegration principles. 
I've been impressed by the level of cooperation that I've seen 
here and compare it only to other States around the country 
where it's very difficult to even find the level of discussion 
that we see around the District.
    As I alluded to in my testimony, I was responsible, working 
with Janet Reno, for the Reentry Partnership Initiative, and 
there are a number of jurisdictions that would be envious of 
the level of cooperation seen here. Why is that? I think there 
is some obvious--the Revitalization Act has provided an obvious 
incentive for people to work more closely together and the 
entities that are now in place, the capacity that's being 
developed is--provides the cornerstone for effective 
reintegration. Halfway houses, I think, are an important 
ingredient of effective reintegration.
    The siting issues, I think there's some national experience 
that can help the District in thinking about ways to resolve 
some siting issues. In particular, I allude to the Safer 
Foundation's work in Chicago. The work of CSOSA in transitional 
interventions is a second key cornerstone that's very important 
to effective reentry; and, third, the approach generally of 
effective--of comprehensive supervision is essential.
    Finally, I'd like to just allude to some framework issues 
that I think will be important to the District and the 
committee in moving forward. One is a recommendation that the 
agencies involved think carefully about what the common mission 
is of their work, and this is more than effective coordination. 
This is asking what are the goals we hope to achieve by 
effecting successful reentry of this number of prisoners? It's 
not just recidivism reduction, as important as that is. It is, 
I argue in my testimony, community safety, and that involves 
community engagement. It involves engagement of people about 
very difficult issues. It's not merely being able to say that 
we've reduced recidivism by X percent, as important as that is.
    The second goal that I would urge the committee and the 
members of the criminal justice community to think about is the 
goal of reintegration, which is a distinct goal from the goal 
of even community safety; and that is, the goal of reconnecting 
the 2,500 people coming back from the District to the world of 
work, to productive and effective family relationships, to good 
health care, to social services, to productive peer group 
relationships, to active civic engagement.
    Reintegration is a goal that is separate from the goal of 
recidivism reduction, or even producing safety, and is a very 
important social goal for all of the agencies involved to 
embrace and to embrace comprehensibly.
    I then recommend in my statement that the agencies of the 
community move beyond that to a set of performance measures 
that will enable everybody to know whether we're making 
progress in this experiment as we move forward.
    So I thank the committee for the invitation to testify and 
look forward to the opportunity to answer questions.
    Mrs. Morella. Thank you very much Mr. Travis. We appreciate 
that perspective and the research that's been done.
    [The prepared statement of Mr. Travis follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.032
    
    [GRAPHIC] [TIFF OMITTED] T6341.033
    
    [GRAPHIC] [TIFF OMITTED] T6341.034
    
    [GRAPHIC] [TIFF OMITTED] T6341.035
    
    [GRAPHIC] [TIFF OMITTED] T6341.036
    
    [GRAPHIC] [TIFF OMITTED] T6341.037
    
    [GRAPHIC] [TIFF OMITTED] T6341.038
    
    [GRAPHIC] [TIFF OMITTED] T6341.039
    
    Mrs. Morella. To start the line of questioning, this really 
pretty much picks up a little bit on what Mr. Travis has said 
and what others have said, too.
    Maybe I would start off with Councilwoman Patterson. Is 
there some plan or strategy that would encourage more 
involvement by the community, by--like nongovernmental 
organizations to assist, maybe even to take the lead, in 
developing community support and activities that would help 
with facilitating reentry of prisoners? I mean, I am very 
cognizant of the fact, and my colleague has mentioned it too, 
that ``not in my backyard'' is a major impediment, and this 
involves community safety.
    So I just wondered if there is a plan of getting some of 
the best and the brightest and the community activists involved 
in helping.
    Ms. Patterson. I can't speak to any formal plan or anything 
that's on paper. I can speak to a number of informal 
conversations that I have had through the course of the last 
several months with some very good community-based 
organizations that work with the prisoner population and with 
some of those who are involved with some of the current 
successful operations of halfway houses.
    Simply, the gist of these conversations has been we need 
all to join together to make this case and to participate in 
the public education of which you spoke and of which Mrs. 
Norton spoke, but no specific plan. I think the point of trying 
to request of the administration a plan for siting was the 
first step, and I think the notion of a facility site selection 
panel, that's another piece of it. But no; no formal plan that 
I'm aware of.
    Mrs. Morella. Ms. Kellems, do you want to comment on that?
    Ms. Kellems. Sure. I hope that is one of the outcomes of 
this symposium that we're having on Tuesday. I think that is 
our attempt, a first step to bring together the practitioners, 
the community organizations, and start talking about what is 
the vision going forward and what are the immediate first steps 
that we need to start rallying around, one of which is 
community outreach and education. How do we engage in a very 
street-level education process?
    Some of that is beginning already with the community 
supervision officers who are out there. A number of the justice 
agencies have community outreach specialists that at a street 
level are trying to educate some of the neighborhoods, but it 
is not--as the councilwoman said, it is not yet a big 
framework, a big strategy at all levels of communication. And 
that's where we need to get, and I hope that we can at least 
start to do that on Tuesday at our symposium.
    Mrs. Morella. 
    Thank you. Ms. Ekstrand, do you think that's important from 
a GAO point of view?
    Ms. Ekstrand. I definitely think that it's important to 
have a variety of participants and for all of them to work 
cooperatively and effectively. In the spring we issued a 
comprehensive report on the D.C. justice system, and one of our 
main points there was the tremendous need for cooperation 
across all the agencies involved.
    Mrs. Morella. And Mr. Travis, the Urban Institute's 
perspective?
    Mr. Travis. My own perspective on this is that this is the 
essential ingredient to success. The District is trying to do 
that which, in my experience, no other city in the country is 
trying to do, which is to say we want to have a comprehensive 
community-based reintegration strategy that involves the siting 
of facilities for most, if not all, people coming back home.
    So to do that in a way that is successful will--the goal 
here is to have the District of Columbia be an example for the 
country--require their involvement. It's just not should we; it 
will require the involvement in the community in some very 
difficult questions. So it's more than a community education 
about what we're doing. It really is an active partnership in 
trying to think through an issue that is our issue. It's a 
combined issue. So I couldn't agree more.
    Mrs. Morella. Right. Good. Excellent. You know, from the 
materials that I have perused and read and discussed, I do not 
know how many halfway houses there are in the District of 
Columbia nor do I know how many beds there are. Can anybody 
enlighten me?
    Ms. Kellems. I can give you an idea. There are--first of 
all, halfway houses, as we are defining them, are places where 
offenders are integrating. Some people in the community use 
``halfway house'' to refer to group homes and to refer to other 
community-based residential facilities. There's a set of 
halfway houses in the justice system operated by BOP, and a set 
operated by Corrections. I think the total number--I'm looking 
at the corrections people. I think the total number is about a 
dozen. I'm sorry. There are five operated by DOC and then a 
number operated by the Bureau of Prisons. And the total DOC 
capacity is 557 beds.
    Mrs. Morella. And the estimate is that there are 250 more 
beds that would be needed?
    Ms. Kellems. Here we go. Thank you. I'm sorry?
    Mrs. Morella. The estimate is that 250 more beds are 
needed?
    Ms. Kellems. At a minimum. It depends on which populations 
you're talking about. We are estimating anywhere from 200 to 
400 beds short right now, just for the folks who are coming 
back who are on the schedule to go to a halfway house. The more 
beds we have, the more people we can put into them. If we need 
to maximize our bed space, you can add more beds, you can move 
people through them more quickly, or you can put fewer people 
through them. That's sort of--so it's a little bit of a 
difficult question to answer----
    Mrs. Morella. So all of these things are being done, 
probably. I mean, probably----
    Ms. Kellems. We're trying to----
    Mrs. Morella [continuing]. Incarcerated for longer periods 
of time to make sure there's opportunities at halfway houses or 
going into halfway houses and out faster, you know, into the 
community, so all--you know, all three are being utilized. So 
something needs to be done. So obviously what we need to do is 
to make sure we are working together for a concerted plan. And 
I note that mention was made of the Federal grant that is being 
requested. You've already met the deadline for that, have you 
not, to submit----
    Ms. Kellems. I believe the application----
    Mrs. Morella [continuing]. It June 1 or something?
    Ms. Kellems. We went to the preapplication conference. The 
final application is due, I believe, October 1, but you had to 
express an interest. There was a team of folks from the 
District who went to the preapplication conference and have 
expressed our interest, and I think that's why they're now 
trying to sort out the details of whether the District can 
participate in the program.
    Mrs. Morella. What would it involve? What are you asking 
for in the grant?
    Ms. Kellems. The grant is essentially to fund elements of 
the reentry strategy, meaning programs most specifically. The 
group really has the opportunity to define how it would use 
those resources. The grant is very broad. It allows--it limits 
only based on a few characteristics of the population, most 
notably the age of the population. Other than that, they are 
really looking to the applicants to outline their vision, 
outline their strategy, what programs do you want to implement, 
and how do you intend to implement them in partnership with 
these community-based organizations.
    Mrs. Morella. We wish you well. My time has expired and 
I'll now defer to my ranking member, Ms. Norton.
    Ms. Norton. Thank you, Mrs. Morella. Before I begin the 
questioning on this very important testimony, first let me 
express my thanks for the candor and the information that was 
available in this testimony. I'd like to say a word to Ms. 
Ekstrand first. It really has to do with methodology, and it's 
not simply the GAO methodology. It's the methodology that--of 
everybody who collects statistics. Mr. Travis was a little less 
this way.
    Let me just say to the GAO and to all of our official 
government agencies, until statehood is granted to the District 
of Columbia, you don't give us accurate statistics when you 
compare this big city to States, and you damage the reputation 
of the Nation's Capital by insisting upon treating us as a 
State for every purpose except the right to vote the right to 
tax as other people do, and I'm about tired of it.
    I understand why it's not--don't let me beat the messenger 
up here, because there's--everybody does the same thing and 
they do it because it is the District of Columbia. It is the 50 
States and the District of Columbia, and that's how the 
Congress always refers to it, and there are good reasons even 
for referring to it that way. But among the good reasons is not 
a comparison of prison populations.
    When you say that D.C. has a higher incarceration rate than 
any State in the Nation, I have to ask you does it have a 
higher incarceration than New York, than Chicago, than L.A., 
than Atlanta? Then I have something to know I have something by 
which I'm comparing apples to apples, and I'm just not sure if 
I am or not. And I may be, because it's a very high 
incarceration rate here.
    Our Council has been very strict--very strict crime 
statutes. When--I think it was Mr. Travis who talked about the 
flow back to Detroit, flow back, when--we can only be informed 
accurately of what we are to do if we can compare ourselves 
with like jurisdictions. And it is--if I may say so, I find it 
without any value to compare us to a State, even though I 
acknowledge that if we were to do the city-by-city comparisons, 
I believe in my own mind that the District would still be very 
high.
    I would like to ask you, Ms. Ekstrand, if you would ask 
your staff to look at your testimony and to give this committee 
within 30 days a comparison--the information that is in your 
testimony compared with other large cities, or other comparable 
cities, just so I would have perhaps a clearer idea of how to 
look at the city.
    Again, I make no criticism of the methodology used because 
it is the accepted methodology. It just would be more useful to 
the committee, often.
    Ms. Ekstrand. I think you're raising a valid point. We'll 
do the best we can to comply. We'll try to get it to you as 
fast as possible.
    Ms. Norton. Thank you so much. I appreciate that. Ms. 
Kellems, let me read to you from the testimony in my May 11 
hearing, so that everyone here can see the background of the 
question I'm about to ask: ``as the GAO indicates, the 
equivalent of 23 full-time officers were devoted to court 
appearances in 1999. I'm sure that the agencies involved have 
explanations from the perspective of their missions. However, 
after years of insufficient attention and incalculable losses 
of funds, patrol time in our neighborhoods, and probably even 
injury and loss of life for residents, I'm going to insist 
today that the relevant agencies, especially the courts, U.S. 
Attorney, and the MPD, submit at least a preliminary plan to 
the CJCC, the''--that stands for what, Community Justice 
Coordinating----
    Ms. Kellems. Criminal Justice Coordinating Council.
    Ms. Norton [continuing]. ``Criminal Justice Coordinating 
Council, within 60 days and to this committe within 90 days.''
    July 11th marked the 60th-day time limit. Was that deadline 
met?
    Ms. Kellems. It came late on the 11th. I know most people 
got it on the morning of the 12th.
    Ms. Norton. Well, that's good. That's good. For D.C. that's 
awfully good. If you can be--we'll give you a day's lead time 
if you'll get it to us in 90 days, that is real progress.
    Ms. Kellems. Thank you. We actually have August 12th 
circled in red ink in our calendars. We're ready.
    Ms. Norton. I suppose--let me express my disappointment 
here. Here the Federal Government for 3 years now has been 
making one of the most notable improvements in decades in the 
District of Columbia. There is no issue of greater concern to 
our residents, even those who live in areas where there's not 
much crime, than crime. We are 3 years into CSOSA, BOP, and 
everybody has acknowledged that what they have is in a 
different ballpark from the crumbling, disgraceful system they 
inherited.
    So what does the District got? Well, I have been trying to 
discern from the testimony anything even approaching a plan, 3 
years now, CSOSA, if it was 3 years, we'd be really on the back 
of the Federal Government. If BOP was 3 years--if BOP was late 
closing Lorton, there would be sanctions from the Congress. 
Those folks have been on time. They have been improving our 
system. And I cannot find what in the world the District has 
done.
    So far, I appreciate that the council has done some things, 
although, I must say so, Ms. Kellems, that I think in any 
strong mayoral form of government, the major responsibility for 
leadership lies with the executive. The council has been an 
impediment, but the council has also put forward some things to 
do. The Mayor has too. Of course, he has been turned back by 
the council. The District's budget request has in it a 
provision from the council for a plan, quote, for the housing 
of any misdemeanants, felons, ex-offenders or persons awaiting 
trial within the District of Columbia. That's very hard.
    Then the council on May 1st prepares another bill. I think 
Ms. Patterson referred to this bill 14-213, the Correctional 
Facility Site Selection Advisory Panel Act of 2001. It provides 
for the establishment of this 15-member commission to prepare 
comprehensive recommendations to the council that identify 
tracts of land suitable for correctional facilities within the 
appropriate zone sections of the District.
    Now, I think this came in part out of what I can't blame 
members of the council for doing. When members of the council 
see Ms. Kellems that somebody says--and CSOSA has to find some 
place, CSOSA goes to the city with no plan in place and CSOSA 
says these people are coming back, find us some place. And if 
what the city does is to say here, and then in this case I 
think it was a Council Member Ambrose woke up and found the 
dart had landed on her, you will never find a member of the 
council that says great, it's my turn now, I concede.
    So I hold the council responsible in one sense, but they 
have to reflect their constituents. And the executive has given 
them nothing to answer back with. So that if everybody in your 
ward is running saying how come you're letting them put a 
facility here and you don't even have the capacity to say well, 
wait a minute, they've got a fair share plan here, wards 1 
through 8 have here, here it is, it's our turn, then, of 
course, you can't expect Ms. Ambrose to do anything but reflect 
what she has heard. So I can't figure out what the difference 
is between what the council's Budget Act asked for and what 
bill 14-231 has. And I can't figure out why it has taken the 
District 3 years to even get to startup which I can't even hear 
in any of this testimony. That's my question.
    Ms. Kellems. I'll go first. I think in the last several 
years, there has been progress on a number of operational 
fronts, but not on the issue I think your criticism lands. 
We've not been progressive in the facility-siting issue. We 
have started good partnerships with CSOSA together with the 
police department. We have put some programs in place for job 
opportunities, job training through the Department of 
Employment Services, but on the specific issue of siting 
facilities we have not done what needs to be done. We agree 100 
percent with the council's demand for a plan. There does need 
to be a city-wide plan, not just for justice-based halfway 
houses, but for all community-based residential facilities. 
What the administration has done so far is begin a process of 
cataloging and mapping where all of these are so that we 
understand the highest concentrations of these facilities.
    There's a tension philosophically between where you site 
these in relation to the people who need them and ending up 
with too high of a concentration in those same neighborhoods 
and stifling those neighborhoods. If you look at a map of the 
District where we've plotted all of these, you see the highest 
concentration of folks who need these services in the same 
place where you see the highest concentration of facilities. 
The problem is the result of what happens as a result of that.
    We're trying to do several things. One is disaggregate some 
of these types of facilities. Because different types of 
facilities, while they create the same community concerns, 
might have different impacts on a neighborhood. We have 
developed this sort of inventory, and I think the council's 
suggestion that there be a site advisory panel is a very sound 
one. We'd like to be able to take to them--start the process 
with some information about what is there so that it's an 
informed discussion going forward. I think we are within weeks 
of being able to roll out this--exercise this facility plan--
I'm sorry, the facility map of where things are at the moment 
which is an important starting point.
    Ms. Norton. Before Ms. Patterson answers, Ms. Patterson, 
you indicated something that caught my attention. You said that 
your 15-member commission that the Mayor could if he wanted to 
do it by Executive order and start the thing going. I will ask 
you, Ms. Kellems, you all should have done this in the first 
place or something like it. They passed a bill. What concerns 
me now you are so far behind. I know you have been working in 
good faith. I know because every time my office is in touch 
with you, it's a very results-oriented office that gets things 
done.
    I believe that you will always be behind the 8 ball unless 
there is something in place that allows you to start. And the 
ad hoc way in which you are being forced to operate is a 
completely impossible way to deal with this problem. 2,500 
people, we're told, are coming back into the community within, 
what, by the end of the year, you have 500 beds? You are in 
such deep trouble that either you are going to be--you, the 
executive, are going to be responsible for new explosion of 
crime or you got to do something fast. And I want to know for 
starters whether you will recommend to the Mayor that he sign 
an Executive order before the end of the month setting up the 
functional equivalent of what the council has asked for, so it 
doesn't have to come here and sit for 90 days, the stuff we 
have to go through here to get legislation passed, so that it 
can be operative by next month.
    Ms. Kellems. I'd be happy to talk to the Mayor about that. 
I think, as I mentioned earlier, that on Tuesday, we will 
really get a lot of valuable input from experts about the 
composition of a group like that, how it should be formed, what 
its role should be, its responsibilities should be.
    Ms. Norton. You have to be very careful because it's a 15-
member commission. If it consists of members of the community, 
this may be, you know, very circular reasoning. Unless the 
staff is prepared to come forward with how the plan would be 
done, you say to people in the community be prepared to site 
your community, perhaps, as one of the places for this plan. 
I'd like to ask Ms. Patterson.
    Ms. Patterson. I think the point of trying to have an 
advisory panel would be to come up with some specific and 
objective criteria. Obviously, you want community input on 
that. You want input from the community organizations that work 
with the prison population but you also want input from some of 
our advisory neighborhood commissioners, from people who are on 
the ground working in their neighborhoods to help with you the 
criteria. I think the site selection advisory idea is to have 
that criteria in place as administration District government 
policy, then you can match sites up against that criteria. 
That's certainly what I would have in mind.
    Ms. Norton. Ms. Patterson, that's not what it says. It says 
preparing a comprehensive recommendation that identify tracts 
of land suitable. That's what your bill says.
    Ms. Patterson. That's the legislation that's introduced by 
two of my colleagues. That's correct.
    Ms. Norton. Could I ask that you take another look at that. 
I know what reading you're on----
    Ms. Patterson. I'm expressing what I would like it to be at 
the other end of a process. We have rules that require a public 
hearing on each bill. So before we move forward, we have to 
have a public hearing, and then would have that kind of input. 
But I think seeking to have some additional capacity soon is 
critical. I think a site selection advisory body is something 
that is a medium-term assistance. So I think there are a couple 
of things we're talking about here. I think your point about 
seeking to have the administration do something perhaps through 
Executive order is one way to go to jump-start, and then we can 
have the public hearing and really further refine who should be 
at the table in coming up with a criteria and the selection. 
But that I see as more of a medium term because of our 
requirement for public hearings.
    Ms. Norton. Did you have a date in yours? Did you have a 
date by which this----
    Ms. Patterson. I don't have a date for the hearing.
    Ms. Norton. I'm talking about, in the council legislation, 
does it give the deadline for the setting up of the hall, for 
the setting up of the 15-member commission.
    Ms. Patterson. There is not a deadline in the legislation, 
as I recall.
    Ms. Norton. Let's make that unnecessary. Ms. Kellems, I 
would like you to take this back to the Mayor and ask him by 
the end of the month to have, not the--this does not interfere 
with Ms. Patterson's, her legislation at the moment says tracts 
of land. And she has explained the difference between which--I 
think, at minimally, somebody has to develop the criteria 
instantly. That criteria even before it was fully operative 
could begin to guide CSOSA on the short term, could begin to 
guide BOP so that we have something to go by instead of who 
doesn't scream the loudest, then let us let it go there.
    So this is July 20th. I don't think it takes a lot of time 
to say--to appoint some folks, even if they have to be in-house 
folks, as well as community folks to look at criteria, just so 
it's a credible commission of people from the community of 
people, as Ms. Patterson says, with some offender experience, 
but it needs to be done by the beginning of August, 3 years 
late already.
    Mr. Morella. I'm pleased that we're able to help to move 
this process forward of coordination and the--to have the Mayor 
present the plan for the developing that census tract and get 
the council working on it too. I would be interested, this 
entire subcommittee, in what your time lines are as you proceed 
recognizing how important it is.
    I'd like to ask you, Mr. Travis, as we talk about site 
selection, have you noticed in your study there is a criteria 
that should be established in terms of where these halfway 
houses should be? By that, I mean can you have too many in one 
section? Should they be distributed in different ways? That 
whole concept of the site selection.
    Mr. Travis. Our report did not specifically look at the 
issue of site selection for transitional housing. As I said 
before, I'm not aware of any jurisdiction that is trying to do 
what the District is trying to do. So I think it does raise 
some new issues in terms of what you alluded to as a 
concentration--the concentration effects of many halfway 
houses. But I do think the principles that should guide the 
process are to recognize that everybody comes home, comes from 
prison and that we want people to be reconnected with the 
positive forces of community and society, and to do that in 
advance of their actually being released from legal 
supervision.
    So that does require that they be close to the communities 
from which they came. So I think that's the key message, as 
Congresswoman Norton said, these are family members coming 
home. So that's the beginning point. And then there's a 
community engagement piece to that that says how shall we make 
this work best at the community level.
    Mrs. Morella. You know, I have considered and I'd like your 
advice on this, particularly Ms. Ekstrand and Mr. Travis, 
considered the idea of using the District of Columbia as a so-
called model to determine what works in terms of recidivism, 
etc. What kind of a study would you recommend should be done 
and what information would be needed to be collected? Do you 
think that's a good idea?
    Mr. Travis. I'll go first and then defer to Ms. Ekstrand. I 
think there is an opportunity here really, a wonderful 
opportunity for the District to provide the learning 
opportunity for the rest of the country, in part, because of 
the positioning of the agencies that is made possible under the 
Revitalization Act, and because of this commitment to halfway 
houses and transitional planning, which is unique, in my 
experience, throughout the country.
    The study that would make sense here is actually one that 
the Urban Institute has designed and we're hoping to launch in 
the next year which is to collect data about what happens to 
people when they're in prison and follow them for periods of 
time as they leave prison and have interviews with the 
prisoners and their families and the community members 
throughout that entire process. And the data from prison would 
include participation in the types of preparatory and treatment 
programs that make a difference at the period of release. But 
it's very important that we connect what happens in prison to 
the period of time after they return home. Because that's the 
time of greatest risk, the time of relapse for drug offenders, 
the time of reconnecting to negative peer influences for young 
people in particular.
    So it has to connect both the traditional prison-based 
literature and the basically nonexistent community-based 
understanding of this process of reentry. And I think because 
of the entities that are represented at your hearing, there is 
an interest in doing exactly that sort of study.
    What is particularly exciting, from a research point of 
view here, is that the interest in halfway houses and serious 
transitional planning really is a way that's going to break 
open our understanding of reentry. Because that's what's not 
being done sufficiently in other jurisdictions. So the 
commitment of the District to do this presents an opportunity 
to inform a larger national discussion if there's a proper 
student that is underway.
    Mrs. Morella. Would there be a particular time period that 
would be critical or imperative?
    Mr. Travis. Well, I tell you, we've taken a look at this 
over the past year and the study that we have designed, we have 
invited a number of States and the District to participate in. 
It would start with the period of time right before release, so 
60 days before people are released, that's an important window 
to ask the prisoners how are they prepared, in their own mind, 
for this inevitable return home, and obviously you collect data 
about their entire prison experience but you interview them at 
that point.
    Then you interview them within the first month and first 6 
months, and within the first year and within the first year and 
a half. So it's 18 months at least after their return home, and 
you're interviewing, at the same time, their family members and 
their peer groups and the communities to which they return. So 
that the entire experience is understood from those various 
dimensions. So it's in total a 2-year period of time to 
understand the phenomenon and in essence to evaluate what's 
working. You can design it in certain ways that you're also 
testing different sorts of interventions such as halfway 
houses.
    Mrs. Morella. Excellent.
    Ms. Ekstrand, would you comment on that?
    Ms. Ekstrand. When we began our work in prisoner releases, 
the first thing we did was try to find robust studies of what 
worked. Because we really anticipated that we would be able to 
include as part of our report a great deal of information from 
very strong studies in terms of what works. We were very 
disappointed to find out that there wasn't a lot of strong 
evaluation work that we felt that we could hang our hat on in 
terms of reporting. So there is a real basic need for strong 
evaluation research in this area. And it's more than ever 
because the number of releasees has increased so rapidly.
    Mrs. Morella. Thank you. I look forward to working with 
you, both of you in trying to craft and construct something 
that would be applicable and consistent with what everyone 
feels. I'm now going to defer to Ms. Norton for her last 
question.
    Ms. Norton. I'd like to ask Ms. Patterson and Ms. Kellems 
if they noted that there was any reaction when--in the 
community in your own efforts with these halfway houses, when 
apparently one of the old contractors had a facility; I believe 
it was a juvenile halfway house, if I recall correctly. In any 
case, it was very close to a school. And then there was a very 
high profile closing of that halfway house by the Attorney 
General. Was there any--has that had any affect on the 
community's understanding or acceptance of these halfway 
houses?
    Ms. Patterson. I think, if I recall correctly, I think that 
was a Federal facility that was going to go back into a site 
and then didn't. And I think, frankly, it simply underscored 
the point you made that squeaky wheels get attention. And you 
can stop things in your neighborhood if you use your political 
muscle. I don't think it--and I appreciate that from a 
constituent's perspective from responding to constituents. I 
don't think it contributes particularly usefully to the longer 
discussion that we need to have about how we make the decisions 
about where facilities go.
    Ms. Norton. Ms. Kellems, do you recall any repercussions 
from that incident?
    Ms. Kellems. It actually is down the street from my house, 
so I know exactly where it is; it was, in fact, directly across 
the street from an elementary school. It had been a facility 
for juveniles and there had been a fire and it was closed for 
some period of time. And it was being reopened as a facility 
for adults. The general sense in that particular community is 
exactly as Councilwoman Patterson said, that if you scream loud 
enough you can stop these things on sort of a one-off basis.
    There are a lot in and around that particular neighborhood 
within half a mile or so, and I think the community feels that 
we really need to come and understand the plight they're facing 
at a very real level, a plight, as they perceive it, meaning 
high concentrations of these things in what are considered 
inappropriate locations, and it speaks to, as Councilwoman 
Patterson said, the need to be more comprehensive, to have 
criteria that the community buy into.
    The tension that we face is that many of these facilities 
are zoned--were purchased in the 60's, and properly zoned and 
given certificates of occupancy, and now, because there is such 
a community backlash against new facilities, that the only ones 
that are there have continued to operate and continued to 
exist. We have to figure out a way to spread this 
responsibility on a larger scale across the city.
    Ms. Norton. That was a classic case of the old D.C. system 
echoing to whatever was planned by the BOP. We'll get to that 
when we see the BOP. But Ms. Kellems, I do think in your own 
neighborhood, what you had was an indication of how lethal a 
reactive approach is to this whole question. It just gets shut 
down. There's nothing you can do. You got a big article in the 
Washington Post and a big editorial, and then the Attorney 
General himself goes in and shuts you down, yet it's his 
responsibility in the first place that this has happened.
    So let me go further finally and ask I am so concerned 
with--I couldn't discern the makings of plans or coordination 
and I've asked for this commission. But I think it's so serious 
that the whole notion of commissions and the rest of it, which 
always take time to educate people, which take their own 
startup time, is something that I might have expected the 
District to do in the transition time between the passage of 
the Revitalization Act and CSOSA and BOP coming online. And as 
much as I believe that what the council is asking the Mayor 
should now do, and I commend that, I'm going to ask you, Ms. 
Kellems, if you would be willing to set up something 
approaching a temporary emergency transition working group 
between CSOSA and BOP and the appropriate personnel in the 
District so that pending a plan there is some guided process 
rather than perhaps an emergency developing, so that somebody 
gets somebody to give them a facility, and then you get a big 
blow up with respect to that.
    So I think quite apart from the commission, very necessary, 
that within the government, some kind of temporary, I call it 
``emergency transition,'' because I don't know what it should 
be, working group, so CSOSA doesn't have to go to you on a one-
on-one basis so that somebody begins to manage coordination, to 
take responsibility for coordination pending the development of 
a plan by the city. Could we see such evidence within the next 
2 weeks?
    Ms. Kellems. Absolutely.
    Ms. Norton. Through the submission to this committee of 
what it is you have devised. I'm not telling you what to 
devise. This is off the top of my head. I am simply saying 
something at the staff level that would develop a process that 
would give the committee greater confidence, give the council 
and the Mayor and the residents of the District greater 
confidence that there is some guided process in place and that 
these things don't happen just as they fall out.
    Ms. Kellems. I think that's a very good idea. I would 
suggest that we work with the--there is something called the 
interagency detention work group that's chaired by the 
corrections trustee that actually you, Ms. Norton, and Mr. 
Holder had called for. That group has spent a lot of time in 
the last year and a half identifying the specific capacity 
needs, the specific capacity issues and short-term strategies 
to manage what it is we do have.
    I think what we need to do is marry that with the city's 
Office of Planning and our facilities folks and look on a 
concrete basis at that third piece. In addition to minimizing 
the stay of people there, in addition to maximizing the use of 
the existing space, what can we do on the third prong to 
increase the capacity in the very near term and get some people 
thinking about that.
    Ms. Norton. It's excellent. I see you know exactly what to 
do. Ms. Kellems, would you get us within 2 weeks what this 
group consists of and you believe its mission should be? Thank 
you, Madam Chairman.
    Mrs. Morella. That brings up a question I had in mind too, 
was to Ms. Kellems about the status, actually, of that 
interagency detention work group that you mentioned. I know it 
was established in 2000 and it was to address the short-term 
halfway house capacity problems. What has been some of the 
actions of that work group and how does that group plan to 
address the capacity issues as we go forward?
    Ms. Kellems. With your indulgence, I'll leave some of the 
details to John Clark, the corrections trustee who is actually 
the chair of the work group, and is on the next panel and can 
give you much more information. The work group has been very 
successful, however, in a whole range of issues in terms of 
procedures and guidelines for the individual operating 
agencies, how they manage populations going in, time lines for 
how long folks are staying in their and what sort of services 
they're getting, criteria for who maybe won't go in for quite 
as long--they've dealt with some of the court policies and 
procedures that we have.
    There has been a whole range of activity, and I think Mr. 
Clark can probably speak to the detail much more than I have. 
But we very much appreciate that that group has been able to 
bring the Bureau of Prisons, the Parole Commission, the courts, 
the U.S. Marshals, a number of these players around the table 
on a monthly basis and really keep the heat on all of us to 
make continued progress.
    Mrs. Morella. We look forward to hearing from him on that 
because that is actually what this is all about, the 
coordination, the plans, the strategy, working together, the 
best practices that really aren't there, which may lead to 
using the District of Columbia as a model to determine some of 
that.
    I want to thank this wonderful panel for sharing with us 
their experiences and hopes for what we can achieve in this 
area. So thank you Councilwoman Patterson; thank you, Deputy 
Mayor Kellems; thank you, Director Ekstrand, and thank you, Dr. 
Travis for this.
    Now we'll ask our second panel to come forward. John Clark 
corrections trustee the D.C. Office of Corrections Trustee. Dr. 
Kathleen Hawk Sawyer, director of the Bureau of Prisons. Police 
Chief Charles Ramsey. And the Honorable Edward Reilly, chairman 
of the U.S. Parole Commission, Jasper Ormond, Jr., interim 
director of Court Services and Offender Supervision Agency and 
James Anthony, deputy director of the D.C. Department of 
Corrections. While I have you finding your spots maybe I'll 
have you stand in place. Clark, Sawyer, Ramsey, Reilly, Ormond 
and Anthony. As you stand I'll ask you to raise your right 
hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will show an affirmative response 
by all of the panelists. So we'll start off, then you all had 
the preliminary, and again, thank you for your patience as we 
went through the first panel. And maybe we can coordinate some 
of the responses. We'll start off then with you, Mr. Clark, 
thank you for joining us.

 STATEMENTS OF JOHN CLARK, CORRECTIONS TRUSTEE, D.C. OFFICE OF 
CORRECTIONS TRUSTEE; DR. KATHLEEN HAWK SAWYER, DIRECTOR, BUREAU 
   OF PRISONS; CHARLES RAMSEY, CHIEF OF POLICE, DISTRICT OF 
  COLUMBIA; EDWARD REILLY, CHAIRMAN, U.S. PAROLE COMMISSION; 
   JASPER ORMOND, JR., INTERIM DIRECTOR, COURT SERVICES AND 
    OFFENDER SUPERVISION AGENCY; AND JAMES ANTHONY, DEPUTY 
            DIRECTOR, D.C. DEPARTMENT OF CORRECTIONS

    Mr. Clark. Thank you and good morning, Chairwoman Morella, 
Congresswoman Norton. And thank you for having this very 
important hearing. I am going to totally retool the brief 
remarks that I wanted to make because we've been hearing 
several themes repeated already. And we have a number of other 
distinguished witnesses. I want to focus on just a few key 
areas. First, I want to make the point that prisoner reentry is 
not just a corrections problem. It's not just a responsibility 
of the corrections and parole supervision authorities. Rather, 
it's a critical matter for community safety and an important 
public policy issue. In that regard, having a rational well 
coordinated process for releasing felons is a concern for the 
entire criminal justice apparatus, and more broadly for elected 
and community officials and the community at large.
    These offenders leaving prison represent, in my estimation, 
the most at-risk group of individuals on our streets, and to 
the extent that they're not successfully reintegrated, the 
entire community is at risk. I am heartened to see a growing 
recognition of that fact in the District, and I am pleased that 
your committee has recognized this reality by having such a 
broad array of witnesses represented here today.
    My second point, and really, Ms. Norton has already made 
this point very eloquently, but I think it bears repeating, is 
simply that in the 4 years since the passage of the 
Revitalization Act, significant progress has been made in 
achieving a more effective reentry of felons returning from 
prison to the streets of the District, thus, enhancing public 
safety.
    One thing that I would emphasize here is that and with the 
graph that Congresswoman Norton showed, there has been 
significant progress in the reduction of rearrests among 
parolees as the Federal model has been implemented, but it 
wasn't just the Federal folks and court services; a significant 
role was played by the District, particularly by the D.C. 
Department of Corrections, which actually implemented much of 
this policy in their existing halfway houses.
    The shortage of halfway house space has already been 
adequately mentioned. I would just again summarize that over 
the past 5 years in the District, we have lost a net total 
between 250 and 300 halfway house beds for males for a variety 
of historical reasons that I won't go into.
    Madam Chair, to a great extent, I think we've heard that we 
know what works in this reentry process, but it is extremely 
difficult to establish adequate reentry resources. If, as a 
system in the District, we are unable to help the Federal 
Bureau of Prisons bring online at least another 250 additional 
halfway house beds in the coming months. It appears that the 
BOP will have to release a significant number of felons loose 
directly into the streets of the community.
    I want to--again several of the things I wanted to say have 
been mentioned, but one of the questions you raised that I will 
try to answer briefly has to do with the number of halfway 
houses in the District and the number of halfway house beds. By 
my count, there are, in the District, 8 correctional halfway 
houses housing somewhere around 700 prisoners. And these are 
comprised of one District of Columbia halfway house operated by 
the Department of Corrections, five contract halfway houses 
operated under contract to the Department of Corrections and 
three of those are shared by the Federal Bureau of Prisons. And 
the Bureau of Prisons, by my count, has two halfway houses in 
addition to those three that they share with the Department of 
Corrections that they contract for, solely for Federal 
prisoners, and those are both under one contract in ward 1.
    Beyond that, I would respond quickly to Ms. Norton's 
suggestion about a work group task force, whatever, in the 
District, by indicating that there has been some work going on, 
as was mentioned through the interagency detention work group, 
but I think on a more permanent basis, possibly the appropriate 
place to deal with this is in the Criminal Justice Coordinating 
Council, which is now being reactivated, rejuvenated hopefully, 
will take the form of having an active agency staff in the near 
future. In fact, at a recent meeting, we did discuss this issue 
and did have a discussion of making this a focus of the 
Criminal Justice Coordinating Committee, making that one of the 
priorities of the group. With that, I conclude my remarks and 
be pleased to answer questions.
    Mrs. Morella. Thank you, Mr. Clark.
    [The prepared statement of Mr. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.040
    
    [GRAPHIC] [TIFF OMITTED] T6341.041
    
    [GRAPHIC] [TIFF OMITTED] T6341.042
    
    [GRAPHIC] [TIFF OMITTED] T6341.043
    
    [GRAPHIC] [TIFF OMITTED] T6341.044
    
    [GRAPHIC] [TIFF OMITTED] T6341.045
    
    [GRAPHIC] [TIFF OMITTED] T6341.046
    
    [GRAPHIC] [TIFF OMITTED] T6341.047
    
    [GRAPHIC] [TIFF OMITTED] T6341.048
    
    [GRAPHIC] [TIFF OMITTED] T6341.049
    
    [GRAPHIC] [TIFF OMITTED] T6341.050
    
    Mrs. Morella. Dr. Sawyer, welcome.
    Are you the first woman to be the Director of the Bureau of 
Prisons?
    Ms. Sawyer. Yes, I am. I've been Director since 1992.
    Mrs. Morella. Since 1992. I remember, way back with James 
Bennett.
    Ms. Sawyer. That's been quite a while, yes. Good morning, 
Madam Chairman and Congressman Norton, I too appreciate the 
opportunity to participate in this hearing. The need to provide 
programs and treatment of offenders to successfully reintegrate 
into the community is a critical aspect of the Bureau of 
Prisons mission. As has been stated many times this morning, 
our communities are directly impacted by the success or failure 
of these efforts.
    The Bureau of Prisons is currently responsible for managing 
more than 150,000 inmates in 100 institutions scattered all 
around the country. Pursuant to the Revitalization Act, we are 
transferring D.C. code offenders into our facilities and today 
we have 5,835 D.C. Superior Court inmates in our custody, and 
we will absorb the remaining approximately 2,000 into our 
custody by the end of 2001. In addition, we have 1,170 D.C. 
offenders from the U.S. District Court also.
    In the Bureau, released planning begins on the day that 
inmates arrive in our institutions. As such, we provide a 
variety of programs to prepare these inmates for an ultimate 
successful reintegration into society. Our programs stress the 
development work skills to enhance employability. The Bureau 
requires all of our inmates to work unless those with medical 
problems who cannot work. And approximately 25 percent of the 
Bureau's medically able sentenced inmates work in Federal 
prison industries. Research has demonstrated that inmates who 
work in prison industries or complete vocational training are 
24 percent less likely to recidivate than those who do not and 
are 14 percent more likely to be employed following release 
from prison.
    The Bureau requires that inmates who do not have a verified 
12th grade education must participate in our literacy programs 
for a minimum of 240 hours or until they complete their GED. 
The Bureau also offers drug education and residential drug 
treatment programs to all inmates who have a treatment need. 
Research on our residential drug treatment program reveals that 
3 years after release from custody inmates who complete our 
residential drug program are significantly less likely to be 
rearrested or to use drugs.
    The Bureau also offers a variety of other programs directed 
toward enhancing personal responsibility. All Bureau facilities 
have parenting programs that provide inmates with opportunities 
to learn more about their children, child development and 
family skills. Our women's facilities operate intensive 
programs that focus on helping women who have histories of 
chronic abuse by addressing their victimization and enabling 
positive change.
    Finally, near the end of their sentence, inmates take part 
in the release preparation program, which includes developing 
resumes, job seeking, job retention skills and presentations 
from community organizations and mock job fairs. The Bureau of 
Prisons' goal is to place inmates in halfway houses for the 
final portion of their terms of imprisonment.
    Halfway houses, as has been stated, provide important 
opportunities for inmates to find a job, place to live, save 
some money, continue their drug treatment where necessary, and 
strengthen family and community ties. All of these factors 
contribute to the lower rate of recidivism and higher rate of 
employment among--that is found in research studies among 
offenders who do release from halfway houses compared to those 
who release without the benefit of halfway houses.
    The halfway house programs contribute to public safety. The 
length of placement varies. It's up to 6 months, depending upon 
the offenders' needs. The national average for our Bureau of 
Prisons inmates is a placement in halfway house for 3 to 4 
months, which we believe is a good number.
    In the District of Columbia, however, because of the lack 
of availability of bed space, the offenders releasing there 
receive less than 60 days in a halfway house placement 
currently. As a result of the transfer to the Bureau of Prisons 
of the D.C. felons, we desperately need more halfway house 
beds. We do not operate any of our own halfway houses. They are 
all contracted out by providers. Prior to the awarding of a 
contract, the Bureau inspects the proposed sites. We conduct 
background checks on the staff and we carefully monitor any of 
these contracts once awarded.
    Our efforts to secure halfway house contracts in D.C. have 
met substantial resistance. Recently, we had to cancel one 
procurement and limit our use of beds at another site. We 
currently have several open requests for procurement of 
additional halfway house beds that are outstanding, but based 
on the community reaction thus far, we are not optimistic that 
we're going to be able to secure any of those beds. The lack of 
halfway house beds not on disadvantages the offender, it 
disadvantages the community and the citizens because of an 
inmate's releasing into community the difficulties frustrations 
and failures that they face, including the potential return to 
criminality is going to be very frustrating for them and impact 
the community.
    I appreciate you holding this hearing today to bring this 
important issue to the focus. The reality is that many of the 
residents and leaders who oppose siting halfway houses in their 
ward will be neighbors to these offenders who are returning 
directly from prison without the benefit of the halfway house 
program right into their communities. And so I'll be pleased to 
answer any questions that you might have.
    Mrs. Morella. Thank you, Dr. Sawyer.
    [The prepared statement of Ms. Sawyer follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.051
    
    [GRAPHIC] [TIFF OMITTED] T6341.052
    
    [GRAPHIC] [TIFF OMITTED] T6341.053
    
    [GRAPHIC] [TIFF OMITTED] T6341.054
    
    [GRAPHIC] [TIFF OMITTED] T6341.055
    
    [GRAPHIC] [TIFF OMITTED] T6341.056
    
    [GRAPHIC] [TIFF OMITTED] T6341.057
    
    [GRAPHIC] [TIFF OMITTED] T6341.058
    
    [GRAPHIC] [TIFF OMITTED] T6341.059
    
    [GRAPHIC] [TIFF OMITTED] T6341.060
    
    [GRAPHIC] [TIFF OMITTED] T6341.061
    
    [GRAPHIC] [TIFF OMITTED] T6341.062
    
    [GRAPHIC] [TIFF OMITTED] T6341.063
    
    [GRAPHIC] [TIFF OMITTED] T6341.064
    
    [GRAPHIC] [TIFF OMITTED] T6341.065
    
    [GRAPHIC] [TIFF OMITTED] T6341.066
    
    [GRAPHIC] [TIFF OMITTED] T6341.067
    
    Mrs. Morella. And now I'm pleased to recognize Police Chief 
Charles Ramsey. I know you're very busy, Chief, and I 
appreciate you being here.
    Chief Ramsey. Thank you, Madam Chair, and Congresswoman 
Norton, members of the subcommittee staff, I appreciate the 
opportunity to present this brief statement concerning the 
Metropolitan Police Department's role in building an effective 
offender reentry system that serves our parolees while 
protecting District of Columbia neighborhoods.
    The public safety challenges posed by prisoners release to 
the community have always been formidable. Over the years, 
studies have consistently shown that up to two-thirds of 
released prisoners are rearrested within 3 years, and 4 in 10 
are returned to prison or jail. As Deputy Mayor Kellems and 
other witnesses have pointed out, meeting these challenges 
requires the ideas and information and resources of more than 
one agency. To effectively manage offenders released back to 
the community, our criminal justice agencies must work together 
while the structure of the District's criminal justice system 
with a combination of local and Federal agencies adds an extra 
layer of complexity to this task, we are working hard and 
effectively to forge the type of partnerships that are critical 
to our success.
    That spirit of partnership is exemplified by the joint 
offender supervision program under way between the Metropolitan 
Police Department and the Court Services and Offender 
Supervision Agency [CSOSA]. This program known as the MPD CSOSA 
partnership was started on a pilot basis almost 3 years ago in 
police service area 704 in the 7th police district.
    Approximately 1 year later, the pilot program was expanded 
to an additional 11 PSAs, and based on our success in these 
areas, we've begun the process of expanding the program to 
every police district and every PSA in the District of 
Columbia.
    The MPD CSOSA partnership is designed to reduce recidivism 
by providing more consistent and intense of supervision of 
offenders released from prison back to the community. The 
program goals are to ensure that parolees follow their 
conditions of release, that they are taking advantage of the 
reentry opportunities available to them, and that they are not 
engaging in further criminal activity.
    Basically, the program has three components. First, the 
sharing of information between CSOSA and the Metropolitan 
Police Department; second, home visits of releasees by CSOSA an 
and MPD personnel; and third, orientation sessions in which 
parolees and probationers learn about the program. And the 
resources information sharing is absolutely critical to the 
effective offender supervision. As the criminal justice 
officials who are out on the street 24 hours a day, 7 days a 
week, our PSA officers must have access to information about 
parolees released back to the communities our officers patrol, 
not just who they are and where they live, but also what 
specific conditions of release they're required to follow.
    This information is essential from a prevention standpoint. 
A central element of our policing for prevention community 
policing strategy is for our officers to get to know the 
individuals in their PSAs, including those who have committed 
crimes in the past.
    This information is also critical from an investigative 
standpoint. When crimes do occur, we need up to date 
information on who the recent parolees are, where they live and 
what their criminal histories are. Under our partnership 
program, CSOSA will be making this type of information 
available to our PSA teams. Through increased automation, our 
agencies will continue to work at streamlining the process and 
making the information more timely and complete. But the 
foundation of trust and cooperation has been established. The 
second program component involves Metropolitan police officers 
and CSOSA community supervision officers following up with 
individual parolees and probationers in their homes what we 
call accountability tours.
    For decades, the basic approach to community supervision in 
our country has been to require the parolees to initiate 
regular contacts with their parole officers, usually in person 
or over the telephone. With this partnership program, we're 
changing the whole dynamic of this process. Now for selected 
parolees, it is police officers and CSOSA members who initiate 
the contact through joint visits to the parolees homes. These 
visits allow us to observe parolees in their environment and to 
more closely monitor their reentry progress, or lack thereof. 
There type of direct hands on monitoring is particularly 
important for releasees with known substance abuse problems who 
may be under specific conditions to avoid alcohol, drugs or 
individuals known to traffic in illegal drugs. And these home 
visits also sends a very powerful message to both the 
individual parolees and to the community that we take our 
supervision responsibilities seriously and are committed to 
protecting the community by keeping a close eye on parolees.
    The third program component, orientation sessions for 
releasees are important from a systemic prevention perspective. 
At these sessions, the parolees and probationers have their 
photos taken and they learn about the MPD CSOSA partnership and 
the enhanced supervision it involves. As importantly the 
parolees and probationers learn about the resources available 
to support their successful reintegration into the community 
from education to job training, employment services to 
substance abuse assistance, to name a few. Getting these 
individuals off to a good start, providing them with the tools 
they need and the incentives to use them is vitally important. 
I should point out that our department is working with our 
Federal partners on similar intensive supervision program for 
defendants at the beginning of the criminal justice process, 
those that have been released to the community pending trial. 
That program is called CORE, or Conditions of Release 
Enforcement Program. Working with the U.S. attorneys officer 
and pretrial services agency officers in selected PSAs have 
been using CORE to aggressively enforce conditions of pretrial 
release, and to do so quickly effectively and without the 
bureaucracy that has characterized pretrial enforcement in the 
past.
    Now CORE is being expanded district-wide as well. 
Basically, the program allows our officers when they observe 
defendants who violate their conditions of release to 
immediately arrest those violators upon finding probable cause 
of a violation. This is a significant reform that is, once 
again, sending a strong message to pretrial defendants in the 
communities where they live.
    As you've heard today, there are many aspects to building a 
comprehensive and effective reentry system for offenders 
released from prison back to our communities. Law enforcement 
is just one component of that system, but a critical component 
nonetheless, in monitoring individual parolees, assisting them 
in assessing prevention resources, and working to put our 
communities--to protect our communities.
    But law enforcement cannot achieve this goal on our own. 
That's why we're establishing a partnership program that we 
have, such as the one I've just outlined here today. Thank you 
very much for giving me the opportunity to speak here this 
morning. I'll be glad to answer any questions.
    Mrs. Morella. Thank you, Chief Ramsey.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.068
    
    [GRAPHIC] [TIFF OMITTED] T6341.069
    
    [GRAPHIC] [TIFF OMITTED] T6341.070
    
    [GRAPHIC] [TIFF OMITTED] T6341.071
    
    Mrs. Morella. Now I'm pleased to recognize Chairman Reilly.
    Mr. Reilly. Good morning, or good afternoon now, Chairman 
Morella and Congresswoman Norton, members of the panel and 
staff. I am indeed privileged for the opportunity to testify 
about the critical problems faced by the U.S. Parole Commission 
with regard to the use and availability of halfway houses in 
the District of Columbia. Beginning in 1998, when the paroling 
authority of the District of Columbia Board of Parole was 
transferred to the Commission pursuant to the Revitalization 
Act of 1997, we understood that many reforms would be needed in 
the management and usage of halfway houses in the District. Yet 
the commission was reasonably confident that with Federal money 
and resources the District of Columbia halfway house system 
could be gradually brought into line with Federal standards 
with regard to prisoners being prepared for release on parole.
    Unfortunately, this has not yet been achieved. The present 
shortage of halfway house bed space significantly impedes the 
ability of the Commission and our justice system partners, 
including the Court Services and Offender Supervision Agency to 
operate an effective parole system for the District.
    Let me first describe a few vital functions and dual role 
that halfway houses have served in the Federal correctional 
parole system. First, prior to the date of their release, 
halfway houses provide prisoners with the controlled transition 
into society. This is critical to their future success on 
parole or supervised release. It has been determined that stays 
in halfway houses are beneficial for virtually all prisoners 
preparing for release, particularly in improving their 
employment prospects. Prisoners who truly must spend a period 
of time in a halfway house before going on parole are those who 
lack a suitable residence and/or employment, and those who need 
a structured setting to accustom them to the need for 
compliance with conditions of parole. The Commission strongly 
believes, based upon both experience and documented research, 
that an appropriate prerelease halfway house stay significantly 
reduces the risk of recidivism that would otherwise result from 
sending prisoners into a community unprepared.
    Second, halfway houses serve as an alternative sanction to 
revocation of parole. This type of alternative sanction, 
oftentimes called halfway back, is justified in the case of 
parolees who violate the conditions of parole but not in a way 
so serious as to require sending them back to the institution.
    Temporary placement in a halfway house or residential 
sanction center can be an effective alternative to revocation 
of parole. These functions were not being served by halfway 
houses in the District of Columbia when the Commission began to 
assume its Revitalization Act responsibilities.
    Since then the Commission and its partner agencies have re-
established the use of halfway houses for the prerelease 
transition process. But widespread delays in halfway house 
placements have persisted. Even though the transfer of the 
District's remaining prisoner population to the Bureau of 
Prisons will be completed over the next few months, we are 
facing a shortage of halfway house bed spaces that are 
allocated for the Bureau of Prison's use.
    I have been advised that the Bureau has only 203 halfway 
house beds available for all commitments for which is 
responsible in three facilities. At this time, only 79 of these 
beds are occupied by prisoners with parole dates. Yet there 
soon will be approximately 130 to 150 prisoners being released 
each month from Federal facilities to begin parole or mandatory 
released supervision in the District of Columbia.
    Let me address how the current shortfall is affecting the 
Commission's operations and our ability to help reduce 
recidivism rates in the District. The first consequence of the 
halfway house bed space shortage is that the Commission has to 
cease its former practice of routinely delaying parole dates 
until prisoners could be transferred to their assigned halfway 
houses.
    The Commission formally retarded parole dates at the 
request of the Department of Corrections so as to ensure that 
all paroled prisoners would be released through a halfway 
house. The policy of releasing paroled prisoners through a 
halfway house was a subject of memorandum of understanding 
between the Commission, the Department of Corrections, and the 
trustees and initiated to facilitate the release planning 
process carried out by CSOSA.
    However, this practice, combined with other problems, had 
the unintended consequence of building up a major backlog of 
several hundred prisoners with delayed parole dates. The second 
consequence of the halfway house shortage is the Commission and 
CSOSA will continue to be unduly restricted in their ability to 
manage parolee population and reduce recidivism, promote public 
safety and ultimately engender the confidence security and 
goodwill of the community.
    At present, the Commission issues an average of 63 District 
of Columbia parole violation warrants per month and returns to 
prison by revoking parole of over 700 parolees per year. In the 
majority of low level violation indications, we ask CSOSA to 
place the parolee in its graduated sanctions program or to 
continue working with the parolee in the hope of successful 
behavior modification. For this program to work, we need to 
have a residential sanctions facility or additional halfway 
house capacity. If the commission cannot place these parolees 
in halfway houses, for example, to sanction persistent 
technical violators, revocation of parole for such violators 
becomes more or less inevitable because their violation 
behaviors frequently turn more serious as time goes on.
    The bottom line is that a successful parole or supervised 
release system requires this basic tool to reduce recidivism. A 
temporary return to halfway house is necessary for many 
offenders in order to avoid a return to crime.
    In conclusion, I would emphasize that opening more new 
halfway houses or residential sanction center facilities in the 
District of Columbia is ultimately the only solution to the 
problem. Otherwise, Federal and District of Columbia courts and 
agencies will continue to compete for the use of too few beds 
and spaces to go around. Failure to provide additional bed 
spaces means that prisoners who gain parole or mandatory 
release will be going into the community but without a service 
that keeps them under surveillance and gives them the services 
they need to maximize their chances of success. Failure 
increases the likelihood that parole offenders will return to 
crime in the communities where they were released or where they 
returned. And that is what we are all trying to prevent.
    I thank you, Madam Chairman, for the opportunity to appear 
before the committee today and will look forward to answering 
any questions you might have.
    Mrs. Morella. Thank you, Chairman Reilly.
    [The prepared statement of Mr. Reilly follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.072
    
    [GRAPHIC] [TIFF OMITTED] T6341.073
    
    [GRAPHIC] [TIFF OMITTED] T6341.074
    
    [GRAPHIC] [TIFF OMITTED] T6341.075
    
    [GRAPHIC] [TIFF OMITTED] T6341.076
    
    [GRAPHIC] [TIFF OMITTED] T6341.077
    
    [GRAPHIC] [TIFF OMITTED] T6341.078
    
    [GRAPHIC] [TIFF OMITTED] T6341.079
    
    [GRAPHIC] [TIFF OMITTED] T6341.080
    
    Mrs. Morella. And now I'll turn to Jasper E. Ormond, the 
interim director of Court Services and Offender Supervision 
Agency [CSOSA].
    Mr. Ormond. Good afternoon, Chairwoman Morella and 
Congresswoman Norton. I appreciate the opportunity to appear 
before you on behalf of the Court Services and the Offender 
Supervision Agency for the District of Columbia to discuss the 
opportunities and challenges of offender reentry into in the 
District of Columbia. Much attention today has been given to 
the role of halfway houses and reentry programming and the need 
to expand halfway house capacity in the District. While halfway 
houses are indeed a critical element of an effective reentry 
system, I would like to concentrate my remarks on the system as 
a whole. We note that most of the offenders returning to the 
District are undereducated and underskilled. They have the 
history of drug abuse and the need for treatment or after-care 
programming that begun in treatment is very, very critical.
    They have an average of 9.2 prior arrests and 4.5 prior 
convictions. One in five has a prior violent offense, while 78 
percent are single and over half report that they have 
children. Over 40 percent have nowhere stable to go after they 
leave prison. Often they have lost contact with family and 
friends. And I think that statistic underscores a critical need 
for halfway house transition that 40 percent basically have no 
place to go.
    Our first priority in discussing reentry is public safety. 
We intend to reduce recidivism and prevent crime, and we have 
set a target as a 50 percent reduction in crime over the next 5 
years, but our strategy must include the related priority of 
addressing offenders needs and providing meaningful 
opportunities and support. Our total current parole caseload is 
5,132, which includes 3,342 offenders on active supervision 
status. The average period of parole supervision is 5 years. We 
believe that over this period, the offender can make an 
important journey by adhering to the external controls of 
supervision, the offender learns to exercise internal control 
over his or her behavior. By practicing accountability to 
others, the offender learns accountability to self.
    We believe that close supervision and attention to 
individual needs are critical to the parolee's success in 
establishing a drug and crime-free life. To that end, we have a 
caseload in almost every police service area in the District. 
We are bringing our officers and our services to offenders 
where they live. It is critical to our strategy that our 
officers work in the field, not in centralized downtown 
offices. By the end of this fiscal year, we will have six field 
officers, each of which is strategically located in an area 
with a high concentration of ex-offenders.
    CSOSA has established a three-phase reentry structure. The 
initial transition phase occurs in the halfway house and 
involves risk and needs assessment, relapse planning and 
intensive drug testing. Fourteen of our community supervision 
officers work with halfway house residents in our transitional 
intervention program, the TIPs program. The TIPs program is a 
result of collaboration among CSOSA, the D.C. Department of 
Corrections, the Bureau of Prisons, the Corrections Trustee and 
the U.S. Parole Commission. It represents an important 
evolution in the way we are thinking about reentry.
    This phase lasts 30 to 90 days, depending on the issues 
facing the offender. During this time, the offender learns what 
will be expected of him or her during community supervision, 
what resources are available to help and what sanctions will be 
imposed for noncompliance. We also begin intensive drug 
testing. If the offender does not reside in halfway houses 
prior to release, the assessment and case planning function 
occurs during the early stages of supervision.
    During the second phase reintegration, the offender works 
intensively with his or her CSO to put in place the basic 
structures of a responsible lifestyle: a stable residence, 
employment, and positive relationships. This reintegration 
phase lasts a minimum of 6 months and usually longer.
    One of our major budget initiatives for fiscal year 2002, a 
Reentry and Sanctions Center, will be critical to both the 
transition phase and reintegration phase. The center will 
provide residential placements for both the initial assessment 
that is so critical to reentry planning and the residential 
sanctions that are critical to preventing recidivism. The 
Reentry and Sanctions Center will also supplement halfway house 
capacity by providing the space for both pre-parole and 
sanctions placement.
    We are putting in place the services offenders need during 
this phase. We have developed 27 agreements with public and 
nonprofit agencies for community service. Building on the 
success of our initial learning lab at St. Luke's Center, we 
are establishing a network of labs to provide literacy training 
and unemployment assistance. We are also working with a 
coalition of churches and nonprofit organizations to develop 
job opportunities.
    The stress of reintegration can contribute to a relapse of 
substance abuse, which must be addressed through treatment. Our 
substance abuse treatment system includes 10 local providers, 
who will serve more than 1,200 probationers and parolees this 
year. Treatment includes both residential and outpatient 
programs, and all of our treatment is tied to supervision and 
sanctions.
    We believe that offenders must be held accountable for 
their behavior. To that end, we have developed a system of 
graduated sanctions for noncompliance. These sanctions range 
from increased drug testing to placement and treatment in 
anticriminality sanctions group, to residential placements up 
to 90 days. This residential sanctions program halfway back 
removes the offender from circumstances influencing his or her 
noncompliant behavior.
    The final phase is relapse prevention and restitution. 
During the remainder of his or her term of supervision, the ex-
offender maintains and enhances a drug and crime-free 
lifestyle. CSOSA has made significant progress in developing 
the kinds of partnerships that lead to a successful reentry 
program. We have established successful collaborations with the 
Bureau of Prisons and the U.S. Parole Commission. We are 
particularly proud of our wide-ranging partnerships with the 
Metropolitan Police Department, which unites community 
supervision officers and community policing in a joint 
supervision activity. We believe these partnerships contribute 
significantly to public safety.
    We intend to have an active partnership in every police 
service area by the end of 2001. Already more than 3,000 
metropolitan police officers have been trained in the 
partnership philosophy. We can achieve positive outcomes. We 
have already seen promising results, a 70 percent decrease in 
parolee rearrests since May 1998 and a 50 percent drop in drug 
testing--positive drug testing among offenders who have 
received treatment. We have increased drug testing by 600 
percent in the last 3 years and we believe that increased 
monitoring is influencing the drug use among offenders.
    These early indicators give us confidence that our goal of 
50 percent reduction in recidivism among the violent and drug 
offenders we supervise can be reached by 2005. We believe that 
the most effective way to meet the reentry challenge is through 
collaboration. We must work together to build both government 
and community support for halfway houses.
    Thank you for the opportunity to appear before you today, 
and I will be open to answering any questions. Thank you.
    [The prepared statement of Mr. Ormond follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.081
    
    [GRAPHIC] [TIFF OMITTED] T6341.082
    
    [GRAPHIC] [TIFF OMITTED] T6341.083
    
    [GRAPHIC] [TIFF OMITTED] T6341.084
    
    [GRAPHIC] [TIFF OMITTED] T6341.085
    
    [GRAPHIC] [TIFF OMITTED] T6341.086
    
    [GRAPHIC] [TIFF OMITTED] T6341.087
    
    Mrs. Morella. Great. Thank you, Director Ormond. And now I 
recognize deputy director, James Anthony, D.C. Department of 
Corrections. Thank you, Mr. Anthony.
    Mr. Anthony. Good afternoon, Chairwoman Morella, and 
Congresswoman Norton. Members of the subcommittee and staff, I 
am pleased to be here to testify on behalf of the D.C. 
Department of Corrections. Director Washington is unavailable 
to present testimony today due to a previous commitment out of 
the city.
    Historically the Department of Corrections has operated a 
post-conviction work release program for inmates sentenced and 
held in our custody since November 1966. The establishment of 
the program was set forth as a result of the Work Release Act 
of 1964. The intent of the legislation was to provide the 
citizens of the District of Columbia with a sense of security 
regarding return of inmates who had been incarcerated for an 
extended period of time, while at the same time affording the 
inmate an opportunity to slowly reintegrate into the community.
    Historically, in order to address the needs of the inmate 
population, the Department established and implemented programs 
designed to assist the inmate in reintegration and 
rehabilitation into the community. These programs consist of 
and include unemployment assistance, job counseling, substance 
abuse counseling and intervention, academic tutoring, GED 
preparation, basic life skills, stress management, HIV/AIDS 
awareness and social services networking and assistance.
    Traditionally, our halfway houses have been used to 
facilitate and transition sentenced inmates who have served a 
significant portion of their sentences and have been granted 
parole or some form of conditional release. In recent years, 
the court has increased its utilization of halfway houses as a 
form of pretrial detention.
    Since the enactment of the Work Release Act of 1964, the 
Department of Corrections has successfully operated and managed 
a work release program for the District of Columbia, and the 
Department has established a state-of-the-art inmate 
information management system recently, which allows the 
Department to more effectively provide for the care and the 
custody of the inmate population.
    Additionally, the Department has developed a District-wide 
escape monitoring system, which utilizes advancement and 
technology that provides its criminal justice partners with 
accurate and timely data related to inmate status.
    We have also established a work program utilizing halfway 
house program participants, who on a daily basis works in 
coordination with several District of Columbia agencies to 
provide manpower assistance for building, grounds and 
maintenance services.
    With the enhancement of the National Capital Revitalization 
and Self-Government Improvement Act of 1997, the statutory 
mandate of the Department of Corrections will change, and the 
Department shall no longer house in its halfway houses 
sentenced felons. Statutorily, the Department will only have 
responsibility for the detention and transition of sentenced 
misdemeanants and pretrial defendants. The responsibility for 
transitioning the sentenced felon population will be 
transferred, as you know, to the Federal Government.
    The Department of Corrections currently operates one 
halfway house, and it contracts with four independent vendors 
to house court-ordered commitments and sentenced felons. The 
Department of Corrections has a total bed space capacity of 557 
at this time; 290 are used to treat pre-trial defendants, 210 
for sentenced felons, and 57 for females.
    As a result of the closure of the Lorton Correctional 
Complex, the Department will continue to utilize the 
independent contract beds in order to meet the anticipated 
population needs. These beds will provide the central detention 
facility with additional bed space should the Department 
experience an increase in inmate population that will cause the 
agency to exceed the court-ordered ceiling capacity of 1,674 
beds at the central detention facility.
    This completes my prepared testimony, and my staff and I 
are here and available to answer any other questions you may 
have.
    [The prepared statement of Mr. Anthony follows:]

    [GRAPHIC] [TIFF OMITTED] T6341.088
    
    [GRAPHIC] [TIFF OMITTED] T6341.089
    
    [GRAPHIC] [TIFF OMITTED] T6341.090
    
    [GRAPHIC] [TIFF OMITTED] T6341.091
    
    [GRAPHIC] [TIFF OMITTED] T6341.092
    
    [GRAPHIC] [TIFF OMITTED] T6341.093
    
    [GRAPHIC] [TIFF OMITTED] T6341.094
    
    Mrs. Morella. Thank you very much, Mr. Anthony. I think 
what I would like to do is to just get--again, get an 
opportunity to get some statistics with regard to the number of 
halfway houses that exist for women and men. And are they 
together? Do you have some halfway houses where you have women 
who are there with men, or are they separate? The length of 
time that they stay there, the average, I mean, I'm hearing 
like 60 days probably the average, but I want to get that kind 
of validated. And then if you know something about what the 
recidivism rate is, whether maybe Mr. Clark, maybe Dr. Sawyer 
would help.
    Mr. Clark. Do I understand the question was related first 
of all to female offenders?
    Mrs. Morella. No. Actually, but I'm including that now, 
too.
    Mr. Clark. OK.
    Mrs. Morella. But I wonder, are they separate?
    Mr. Clark. Yes.
    Mrs. Morella. I know they are fewer, many----
    Mr. Clark. Yes. In fact, I think the point should be made 
that in the District on the good news side, there is no 
shortage of halfway house facilities or beds for the females 
who are returning. There are----
    Mrs. Morella. May you not need them in the future.
    Mr. Clark. Pardon me?
    Mrs. Morella. May you not need the additional space in the 
future.
    Mr. Clark. That would be wonderful. There are two 
facilities, a somewhat larger one in Northeast, I think on G 
Street, and a smaller one in the DuPont Circle area on 19th 
Street, which are both operated by the same company, Reynolds 
and Associates. I think there is a total capacity of around 90 
to 100 beds between the two of them, and that vendor contracts 
at those sites both with the Bureau of Prisons and the 
Department of Corrections. And there are no facilities that are 
shared by men and women.
    Mrs. Morella. Tell me about the recidivism rate. I mean, I 
hear that two-thirds of those that are released into the 
community with maybe the shortened stay at halfway houses 
return as recidivists?
    Mr. Clark. I'm not the right person to speak on that.
    Mrs. Morella. Perhaps Dr. Sawyer.
    Ms. Sawyer. I can address that for our Federal inmates. 
Roughly 40 percent of our inmates recidivate in the first 3 
years, which means 60 percent of those inmates stay on the 
streets after 3 years. Now, when I say recidivate, we define 
that very broadly. That includes those who violate supervision, 
those who violate parole. They don't need to have committed a 
new offense. They don't even need to have gone back to prison, 
necessarily, but it means they have violated some element of 
their supervision or committed a new crime. And that is for 
Federal inmates that are releasing back into the community.
    Mrs. Morella. There must be somebody, though, that knows 
what the recidivism rate is in the District of Columbia.
    Ms. Sawyer. Mr. Anthony or Jasper?
    Mr. Ormond. Madam Chair, we are first taking a very close 
look at how we are defining recidivism. First we looked at 
convictions. This year we are establishing a baseline for what 
we're truly calling recidivism, and I would be somewhat 
reluctant about putting a number out now. By September 30th of 
this year, we should have a good sense of what the true number 
is, because it also includes convictions, as well as violations 
for technical violations.
    Hopefully if the graduated sanctions and the drug treatment 
and the other Halfway Back options are being as effective as 
the preliminary results indicate, we should see a significant 
decrease in the number of technical violations. So convictions 
will be the variable that we really focus on, but, again, 
September 30th, October, we will be in a much better position 
to intelligently answer that question, and I would be reluctant 
to just give a number at this point.
    Mrs. Morella. When you do answer them by September 30th, 
what will it include? I know you have categories, so we----
    Mr. Ormond. It will include people that were convicted for 
new crimes, because rearrest is not always a good indicator, 
because people are often no--in addition to convictions for new 
crime, violations that will result for a return back to prison, 
those would be the two major criteria that we will use, yeah.
    Mrs. Morella. I'm surprised you don't have it in categories 
at this point.
    Mr. Ormond. I'm sorry?
    Mrs. Morella. I'm surprised you don't have it categorized 
at this point, since it's really critical to what we're talking 
about, halfway houses----
    Mr. Ormond. Those are the two categories, convictions and 
violations that will lead back to incarceration, but we're 
continuing to gather the data at this point, yes.
    Mrs. Morella. And you will get----
    Mr. Ormond. Yes, we will get it. Yes, we will, yes.
    Mrs. Morella. Another question I have has to do with 
whether or not health assessments have been done on the 
released prisoners that are on parole. For instance, I am 
particularly interested in the incidence of tuberculosis and 
HIV and AIDS, those that, you know, come about perhaps through 
drugs. And I wonder how you monitor and address those needs. 
Again, I'm looking at everyone, so that whoever wants to 
answer, feels qualified to offer a point, will do that. Dr. 
Sawyer.
    Ms. Sawyer. Yes, I can speak very specifically to--again, 
on Federal inmates and the existence of the infectious diseases 
of the inmates that are in our custody. Roughly 1 percent, and 
that has been pretty much a standing average for the last 
several years in the Bureau of Prisons; 1 percent of our 
inmates are HIV positive.
    Now, our understanding--and I'd defer to Mr. Anthony, but 
our understanding and the data we've gotten thus far on the 
inmates coming into our system from the D.C. Department of 
Corrections is that their HIV rate runs closer to 8 percent. So 
since this is a large city and since cities tend to have a 
larger preponderance of infectious diseases and our inmates 
come from across the country, you would expect that to be 
somewhat different, but the best numbers we've gotten thus far 
from the inmates coming into our system as we prepare for their 
medical needs is 8 percent incidence from the D.C. population.
    In terms of tuberculosis, the numbers are much lower. Our 
rate in the Federal prison system is roughly 6.4 per 100,000. 
The D.C. rate in the whole District of Columbia, not just the 
inmates, is 13.5 per 100,000. So that would certainly suggest 
that the incidence among the inmate population is going to be 
higher also.
    The average population--I'm sorry. That was--the 6.4 is the 
average population in the country; 2.5 is the average 
population per 100,000 for Federal Bureau of Prisons inmates. 
So our population is 2.5 per 100,000. The U.S. population is 
6.4 per 100,000. The District of Columbia is 13.5. Mr. Anthony 
may have that specifically for his offender population.
    Mrs. Morella. Mr. Anthony.
    Mr. Anthony. Mrs. Morella, I do not have the exact figures 
regarding that information today, but I will get that for you.
    Mrs. Morella. You're right, because, see, I'm also 
interested in how you monitor it. Do you send them out with 
multiple drug resistant strains of TB or HIV and AIDS, or how 
do you monitor them, and what kind of an assessment?
    Mr. Anthony. All inmates entering our system go through 
medical examinations, and so forth, and at that point in time, 
in terms of intake, they are assessed for their needs, and it's 
determined at that time. And if they are found to be infected 
in terms of TB, then they are separated from the general 
population, and so forth, until such time that they're treated 
and stabilized before they're allowed to enter the population.
    Mrs. Morella. Can you get those statistics to us also?
    Mr. Anthony. Yes, I will.
    Mrs. Morella. And I would include sexually transmitted 
diseases in that category.
    Mr. Anthony. All right.
    Mrs. Morella. Great. Great. Thank you, my time has expired. 
Ms. Norton.
    Ms. Norton. Thank you very much, Madam Chair. First, let me 
address a question to Ms. Sawyer. As of December 31st, will the 
entire responsibility, including each and every inmate now in 
Lorton, be in the hands of the Bureau of Prisons?
    Ms. Sawyer. Yes, it will. In fact it may be before December 
31st. We've set a target for ourselves of November 1st to try 
to get the vast majority, and there may be a few stragglers 
after November 1st, but we thought we'd give ourselves a window 
there to assure that we have them all in our system before 
December 31st.
    Ms. Norton. Well, first of all, may I commend BOP for the 
way in which they have moved on time. It was a little slow up 
there at one point, but I must say that every time that there 
was a problem, BOP was able to get ahold of it very 
efficiently. And here you're going to come in ahead of time 
with each and every inmate from Lorton being in the Federal 
system on time by December 31st and the closure of Lorton as of 
that date; is that true?
    Ms. Sawyer. Absolutely. Thank you very much.
    Ms. Norton. Now, that will--of course, ever since the 
passage of the Revitalization Act in August 1997, you have had 
full financial responsibility for inmates at Lorton for all of 
our prisoners, and that has been an extraordinary relief for 
the District of Columbia, of course. And we wouldn't be out of 
insolvency today if the Federal Government had not relieved us 
of the revitalization agency responsibilities.
    But as I understand it, even after assuming full 
responsibility for each and every inmate and full financial 
responsibility, the District of Columbia will be paying for 
inmates held in the District of Columbia solely for the 
convenience of Federal prosecutors or Federal--yes, Federal 
prosecutors. That's who would have to, I think, ask, or Federal 
courts.
    Ms. Sawyer. Inmates in that status would really be the 
responsibility of the U.S. Marshals Service. It really is not a 
Bureau of Prisons involvement there. So I am not really 
equipped to address that. I'm not sure. Mr. Clark might be. But 
those become Marshals' inmates when they're in that status.
    Ms. Norton. Well, I'm interested in the fact that they will 
remain District of Columbia financial responsibility and doing 
something about it.
    Mr. Clark. Yes. This has been a thorny issue for several 
years, and we've had discussions about it. Again, the model 
that was adopted in the Revitalization Act and in the MOU that 
led up to it is the model of local versus State responsibility, 
and the idea was that the Federal Government in this instance 
would take over the responsibility that is similar to States 
around the country. And typically in States around the country, 
prisoners who are being held locally for the convenience of the 
court are our local responsibility until they are sentenced, 
finished with their time at court and are sent to the State 
prison.
    So in my estimation, and I've spent a lot of time on this, 
the District is not disadvantaged vis-a-vis other 
jurisdictions, local jurisdictions around the country in this 
regard.
    Ms. Norton. Well, our information was that the Federal 
Government pays States for housing prisoners held for their 
convenience.
    Mr. Clark. If they're being held for the Federal court, 
they are, but not if they're being held, in this instance, for 
the local court, for the Superior Court. So here locally, the 
prisoners who are being held for the District Court are the 
responsibility of the U.S. Marshals, who reimburse the District 
I think $8 or $9 million a year. Those who are being held for 
Superior Court, similar to Cook County Court, let's say, are a 
local responsibility as they are in Cook County, even though in 
this case the U.S. Attorney's Office takes the role of the 
local prosecutor.
    Ms. Norton. All right. Let me go on then to Mr. Jasper. 
Actually, I think this really has to do with not only Mr.--I 
think this has to do with BOP and the Department of 
Corrections. I'm trying to figure out what happens as of 
December 31st with the jurisdiction that the Department of 
Corrections now has over halfway houses. Am I right in assuming 
that as of December 31st, all the responsibility for pretrial 
and for supervision of those coming back into the community 
lies entirely with the Federal Government as well? And if so, 
that leaves open the question, what happens to these facilities 
that the Department of Corrections has? It has one itself. And 
then of course it has five, according to your prior testimony 
here, which it shares with the BOP. And then there are two that 
are entirely BOP. Who has control over those facilities as of 
December 31st?
    Don't everybody speak at once.
    Mr. Clark. I'd be glad to speak to that.
    Mr. Anthony. At the moment, the Department of Corrections 
has the contractual authority for those facilities at this 
point in time.
    Ms. Norton. Now, you all will be using--I take it you 
contract them out. That's all you do with them, and you pay for 
it, insofar as it involves District of Columbia inmates or 
pretrial----
    Mr. Anthony. That would be the case after December 31st.
    Ms. Norton. Now, will you be needing all of your space?
    Mr. Anthony. We believe we will need all of our space at 
that time.
    Ms. Norton. Yes, Ms. Sawyer.
    Ms. Sawyer. So they will retain all the pretrial 
responsibilities for which they use halfway houses. They will 
also retain the misdemeanant responsibilities for which they 
use halfway houses. So the only thing we actually are picking 
up in terms of the halfway house responsibility are the 
releasing inmates, the ones who have been sentenced, they're in 
our custody for felonies, not misdemeanants, and are going to 
be releasing from us. Those will be going back into halfway 
houses.
    Ms. Norton. Well, they share--the reason I'm asking about 
their need is it's interesting to note that they now share five 
facilities.
    Ms. Sawyer. It's not exactly a sharing. What it is is a 
contractor, for example, Hope Village, if I could use that one, 
they have X number of beds. We have contracted for the use of 
110 of those, but the D.C. Department of Corrections has 
contracted for a larger number, an additional number. So it's 
one facility----
    Ms. Norton. I see, but explain to me who supervises that 
facility which has two jurisdictions in it. Who is responsible 
for that facility? Is this where Mr. Jasper comes in or----
    Ms. Sawyer. No. We're responsible for the----
    Ms. Norton. I mean, Mr. Ormond comes in. I'm sorry.
    Ms. Sawyer. We're responsible for those inmates that are in 
our custody, the Federal inmates releasing through that 
facility. We're responsible for monitoring that facility in the 
relationship to those inmates, and the D.C. Department of 
Corrections would be responsible for monitoring that 
institution's functions in response to their inmates. So we 
both do. We basically both monitor the facility.
    Mr. Anthony. With Hope Village, we have a contract there 
for 170 beds, and we're responsible for monitoring that 
aspect--that contract is separate and apart from the Federal 
Government.
    Ms. Norton. Are these folks all mixed in together? Are they 
separated out?
    Mr. Anthony. Yes, ma'am. They're in separate housing.
    Ms. Norton. They're in separate housing. So the BOP is in 
one--I see. Do they have different standards? Are there 
different ways of operation?
    Ms. Sawyer. There's going to be some variations, because we 
write our statement of work, and we have our priorities and our 
requirements we place on them that might be a little bit 
different. I think in general, there would be a very similar 
operation, but I'm not sure I could say identically, because 
our statement of work----
    Ms. Norton. I wish--I would very much like--do y'all talk 
to one another about----
    Ms. Sawyer. Absolutely.
    Ms. Norton [continuing]. Internal operations?
    Ms. Sawyer. Absolutely.
    Ms. Norton. Would you provide to the chairman, to this 
committee, a summary----
    Ms. Sawyer. Sure.
    Ms. Norton [continuing]. Of how each of the facilities 
operates, what the criteria, what the guidelines of each 
facility and how each facility relate to one another? I just 
want to make sure that as we take over completely in the 
Federal--the Lorton inmates, that we don't somehow develop 
trouble up ahead because we didn't foresee what having two 
different jurisdictions in the same contracted space might give 
us. And there may be no trouble here, but we'd just like to--
we'd like to see how you operate and how you relate to one 
another.
    Ms. Sawyer. We'll certainly do that.
    Ms. Norton. Mr. Ormond, what are you--are you releasing----
    Mr. Ormond. I'm sorry?
    Ms. Norton. Are inmates offenders who were coming out, are 
any of them being released directly into the community for lack 
of halfway space right now?
    Mr. Ormond. Yes. The initial numbers we have roughly--
probably less than a third of the population is being released 
directly into the community.
    Ms. Norton. So two-thirds are going to halfway houses 
still?
    Mr. Ormond. About 70 percent currently are going to halfway 
houses, yes.
    Ms. Norton. How do you determine--or do you have a choice 
between who gets to go--who goes to a halfway house and who 
gets turned out into the community without any--first of all, 
let me be clear. If somebody doesn't go to a halfway house but 
they would have if there were space, are some of your services 
available or required of that person released into the 
community? Doesn't go to a halfway house. You don't have space, 
but he's out into the community. Do you have any responsibility 
for that offender who now has had to go straight to the 
community without any of your services or any of the halfway 
house requirements?
    Mr. Ormond. Yes. We still have supervision responsibility 
for that individual.
    Ms. Norton. How do you exercise that responsibility? Much 
of your responsibility--much of what you do is effective, 
because--let me give an example. In the first several weeks, 
that's virtually a lockdown, isn't it----
    Mr. Ormond. Yes, it is.
    Ms. Norton [continuing]. When they first come out. So those 
folks aren't even going back and forth in the community to 
commit any crimes at all. They're locked up for all intents and 
purposes?
    Mr. Ormond. That's correct.
    Ms. Norton. So that's part of the reason that you've been 
so successful?
    Mr. Ormond. Yes.
    Ms. Norton. What do you do--are you releasing into the 
community people who are the least serious of the people coming 
out, or do they have to just get releases to come out, and if 
there's a bed available, you get to go in it; if it's not 
available but you are a four-time recidivist, you get to go 
free? How is that done?
    Mr. Ormond. We are meeting with the Bureau of Prisons and 
the U.S. Parole Commission. Our attempt is to categorize 
offenders and only release those people directly to the 
community, and our supervision officers are responsible for 
making those assessments, that are minimal risk. That is not 
the ideal approach, but at this point in time, we do have to 
categorize based upon risk to a community, yes.
    Ms. Norton. Madam Chairman, my time is up. I have other 
questions, but I'll----
    Mrs. Morella. What an enormous undertaking when you think 
about what we're discussing, halfway houses, whether or not 
people go directly into the community, whether they have an 
opportunity to spend 60 days in a halfway house, or whether it 
is 120, which would be probably what's ideal. Going through my 
mind is the whole problem of how do they find housing? We know 
what the job situation is and what the housing situation is in 
the District of Columbia, how difficult it is to find adequate 
housing that you can afford. How do they find a job? I mean, is 
there a--do you have the counselors that truly help them within 
that very short period of time that they are in a halfway 
house, if they are, that's going to help them? They have had 
some skills--as I look at some of the programs that Bureau of 
Prisons offers, ideally they've had some literacy skills, with 
a GED as the ultimate area or the advancement, but some 
literacy skills that I hope are required before they leave. But 
some of them have problems with regard to mental illness, drug-
related illnesses, all kinds of health problems.
    What do we do? What should we be doing? How do you handle 
all of these problems? The magnitude is great, an even just the 
basic bottom line of do they have a house and a job and access 
to health?
    Mr. Ormond. And I would just like to say that period of 
time in the halfway house is absolutely critical for us, 
because that is the time that we make the assessment of what 
their housing situation is, what their employment skills are, 
what the family reintegration looks like, the mental health 
issues, the other health issues. So that period is absolutely 
critical. And at that point we make our recommendation back to 
the U.S. Parole Commission, and their transition in the 
community is determined by their level of functioning along 
those critical elements that you mentioned. It also gives us an 
opportunity to assess the resources that's available, 
particularly the health, the mental health and substance abuse 
resources, to make sure that match takes place prior to going 
into the community.
    The sex offenders, again, very critical, because we do not 
allow the sex offenders to move into the community until those 
treatment resources are in place. If we began to circumvent the 
halfway houses, now we have sex offenders moving into the 
community without us absolutely being sure that those resources 
are in place.
    Mrs. Morella. Incidentally, we do appreciate what CSOSA has 
been doing, too, so as I mentioned in my opening statement, 
there have been some improvements that we have seen.
    Mr. Reilly, would you like to comment?
    Mr. Reilly. I'd like to just comment, Madam Chair, that 
last weekend I had an opportunity, because I was very 
interested in what was available in this community, and CURE 
sponsored a fair downtown here, and I spent 3 hours on my 
Saturday with two of our staff from the Parole Commission and 
was really amazed at the resources that were available at that 
particular meeting.
    Councilwoman Patterson was also in attendance. It was an 
opportunity for me, and I wanted to familiarize myself with 
just what was here in the District to help these folks.
    But it also I think--and I think Mr. Ormond commented on it 
earlier. There is a great need for the coalitions in this 
community of churches and other interested groups to come 
together and offer the hand that needs to be offered.
    I mentioned this to Cardinal McCarrick the other evening at 
a dinner from the standpoint of the Catholic Church, but all 
churches to get together and help, because the District is 
unique in every situation in terms of this whole system that 
has been created now, and it seems to me imperative that we all 
bring together those resources.
    I intend and have already had a call from Mr. Reynolds, who 
runs some of the halfway houses, to begin visiting this next 
week, those halfway houses, because I want to familiarize 
myself with just exactly what they are, where they are and what 
people think of them. I think that's imperative for us at the 
Parole Commission, because we put people in these facilities 
and we want to know that indeed putting them there is going to 
be an advantage and a benefit to them. So we're trying to 
become aware ourselves by getting very intimately and 
personally involved in this, but I do think it's a community 
effort on behalf of everybody to pull together with these 
various groups and the resources that I learned were available.
    Mrs. Morella. Good. The community is a big stakeholder, and 
as we said with the first panel, coordination, cooperation, 
community hearings, meetings, including the nongovernmental 
organizations and the religious groups that are there, a safety 
net is really very important.
    Chief Ramsey, what is the status of the community justice 
partnership, CSOSA's community supervision offices to work 
closely with the police officers to monitor probationers and 
the parolees in the District? I know that was established, I 
understand the end of 1998, between the police department and 
CSOSA, but how does the initiative work? How many police 
officers are assigned to that program?
    Chief Ramsey. Well, it works very, very well. Commander 
Winston Robinson is in the audience from the 7th District and 
that's where we actually started the program. It was a pilot in 
7-D on BSA-704 and in a year's time, they experienced a 39 
percent reduction in crime.
    Now, whether or not that entire 39 percent reduction in 
crime was due to this program or not, but it was the largest 
decrease in the entire city, and I strongly believe that a lot 
of what we did had something to do with that, because for the 
first time officers had information they needed around the 
people that were in that status. We worked very closely with 
CSOSA. We made home visits. It sent a very strong message to 
the individuals that, you know, we take supervision very, very 
seriously. If officers saw someone violating their parole, they 
were able to take some sort of action, and it has certainly 
made a difference. About half of our PSAs now--we have 83 PSAs 
in the city--46 of them have partnerships.
    It is not a dedicated group of officers, but what it is are 
officers that have been trained, that understand this, and that 
work along with CSOSA to make these visits. Oftentimes it could 
be members of a focus mission team. It could be members 
directly from the PSA that do it.
    On the other hand--and let me just say that by the end of 
this year, we hope to have all 83 PSAs with some form of 
partnership. Obviously we have more parolees concentrated in 
some areas of our city than others, but we do want to expand 
that training to all of our members.
    On the other side, we have the core program, which is when 
we work with pretrial and the U.S. attorney's office and 
knowing conditions of release, again, it is very valuable for 
officers to know if there is a stay-away order, individuals 
that they come in contact quite frequently were able to enforce 
that. And, I mean, it is a great partnership that we have. 
Obviously it needs to be expanded so it can cover a whole city, 
but I think in just a brief period of time it has already 
demonstrated that it makes a huge difference.
    Mrs. Morella. You feel you currently have the resources but 
you'd like to expand it?
    Chief Ramsey. Yes, ma'am. We definitely want to expand it, 
and I think it's worth anything that I put into it from an 
extra resource standpoint, because it does have an impact 
directly on crime in our communities.
    Mrs. Morella. And where there's a concentration of released 
prisoners in a single geographic area, what actions does the 
Metropolitan Police Department take to monitor crime levels? Do 
you have an increased number of police who are there? Do you 
use community police on bicycles or, you know----
    Chief Ramsey. Well, there's a couple things we do. One 
thing we started doing was to track our crime data by PSA. So 
we've taken--we've got baseline data that we have, for an 
example with 704--PSA-704, we use 1997 as a baseline for that. 
So in 1998 we had a pretty big comparison to see the 
differences in crime rates and so forth, so we track it by PSA 
and we try to integrate the information that we have around the 
number of parolees and some PSAs have a very, very large number 
of parolees living in that given area. We have some that have 
virtually none, I mean, for all practical purposes they have 
none. But we do try to focus on that very, very carefully.
    I think--I'm a big proponent of the halfway houses, because 
when I came here, I didn't really understand their function, 
but the longer I'm here, the more I can see that that structure 
that people have when they come from a structured environment, 
it just helps them make that transition. When they're put 
immediately out into the community, they don't have that 
support mechanism and supervision, we can only supervise so 
closely, and after that, I think the environment can take over 
and the pull that people feel from that environment can 
oftentimes turn them back toward criminal activity. And if we 
aren't able to keep pace with the growing number of people 
leaving our penitentiary systems, then we're going to have a 
system that is going to be driven not by people at minimal 
risk, but you're going to see that start to move up to a more 
moderate risk or unfortunately maybe even high risk, if they 
can't keep pace, because at some point in time, you can only 
put so many people in a system, and after that you've got to 
make an adjustment, and that adjustment is going to be on the 
assessment and people that we don't want to put out on the 
street directly, they're going to be forced to do it.
    Mrs. Morella. Thank you, Chief Ramsey.
    Ms. Norton.
    Ms. Norton. Thank you, Madam Chairman. Perhaps Ms. Sawyer 
can make me understand this. Several times from different 
testimony we've heard this notion that there are more returning 
from the District than before, and I didn't quite understand 
that, because I thought under the probation system you had to 
serve most of your time, and then you came out through the 
system of release. Whereas there used to be a parole system 
where I thought you could get out earlier.
    Why is it that we're having such a large number of inmates 
or offenders returning in such large clumps now?
    Ms. Sawyer. I don't think the number returning has actually 
changed. It is the number returning needing halfway houses, 
because as was noted earlier, the D.C. Department of 
Corrections has kind of stopped using halfway houses or reduced 
it dramatically for release cases, and the Bureau of Prisons, 
plus the Department of Corrections and CSOSA have all embraced 
this idea that returning through halfway houses is very 
important and it does impact recidivism rates and it has 
obviously been doing that here in the District once the halfway 
houses are back in use again. So it's really the number has 
increased of inmates needing halfway house separation.
    Ms. Norton. It's very important to say, because the 
impression is left when one reads the newspaper that all of a 
sudden these are the kinds of things we have to watch out, 
because people get terrified beyond anything that is necessary. 
People are being told that there is a whole slew of prisoners 
coming out and it's something very different and they're going 
to blame BOP for it. I couldn't understand what in the world 
people were talking about. Now I understand. Thank you. It's 
very important.
    Did you have something to say, Mr. Clark, on that?
    Mr. Clark. Only to put this in somewhat of a historical 
context, over the course of the last 10 years, the number of 
offenders incarcerated in the District has steadily gone down. 
About 10 years ago, it was around 12,000. Today it is about 
10,600--or 10,100. That's encompassing all of the pretrial 
cases and all those in the Department of Corrections and all 
those in the Bureau of Prisons, but essentially the pretrial 
and sentenced felon population combined has continually gone 
down. So in the same vein----
    Ms. Norton. If anything, there are fewer people coming out 
than before, fewer people with greater supervision and more 
services. The numbers here are very important to get straight 
in the public's mind.
    Mr. Ormond made a very important point in answer to a very 
important question that the Chair asked about recidivism. This 
is another--a piece of information that's out there that is 
really wrong. The word ``recidivism'' covers a multitude 
literally of sins, from the sin of not reporting in to your 
halfway house, to the extent of committing a crime. It is a 
total disservice to all we're trying to do in the community to 
lump them in the same categories that might be for the 
convenience of somebody, but the press won't do you a favor 
with it. They will report out this is the recidivism rate, 
because that's what they've heard from you, and I understand, 
Mr. Ormond, why you were reluctant to just come out with some 
number off the top of your head. You indicated to Mrs. Morella 
that by September or October you would have a workable system. 
If so, you will be one of the few systems that does have a 
workable system of reporting so that the public will have a 
real sense of what will happen. Can I ask that when you get 
that, can you offer those statistics to the Chair in the fall, 
as you said you would have them?
    Mr. Ormond. Yes.
    Ms. Norton. You now said--you said, Mr. Ormond, that you 
are able to keep people for only something under 60 days now in 
a halfway house. Was that your testimony earlier?
    Mr. Ormond. I think Dr. Hawk made that statement.
    Ms. Norton. OK. Less than 60 days. What was it when--let's 
look at the chart for a moment. That chart is what made me a 
believer and what I think would make reasonable people in the 
community understand that they have a lot more to gain than to 
lose if we have a fair share plan of halfway houses, because 
there's no question, if you look at that chart at the beginning 
date of CSOSA jurisdiction and where it was 2 years later, that 
something dramatic happened to crime. And it's--I'd like to 
focus on that. Can you tell me how long you were able to keep 
people in the kind of state-of-the-art supervision that was 
your goal at the beginning when those numbers were very--I'm 
sorry--near the end of that period when those numbers had come 
way down and whether you are keeping people in there for the 
same number of days now, or whether you are cutting the days in 
order to get more people into the system in the first place?
    Mr. Ormond. The days are being cut. I think up to around 
June or July 2000, we basically had the system as we had 
initially agreed it to be, that each person would transition 
into the halfway houses. There were a lot of meetings and there 
were a lot of discussions about reducing the days. We were 
very, very reluctant to do that, but we were in a position. 
Either we retired a lot of people in prison or we began to 
reduce the days so everyone would get an opportunity for 
transition. But that is not the idea. But I think Dr. Hawk, who 
has more experience with this, will basically say particularly 
for the substance abusers we need the entire 120 days because 
the assessments, the multiple needs that they present really 
require time to put resources in place, but also to create an 
accountability system that they are also clear that we are 
serious about community order and accountability.
    Ms. Norton. And you say that takes at least 120 days, and 
now you're already down to 60 days. And I understand why, but 
we already cut the time in half, virtually, in order to keep 
from just putting people out into the community, some with some 
and some with none.
    Ms. Sawyer. The less than 60 days was an average that I 
indicated that is the current average placement, and that 
varies, because we place----
    Ms. Norton. Well, everything is always an average. You 
can't do anything better than----
    Ms. Sawyer. My only point is it varies based upon the need 
of the inmate. So someone who has a drug treatment history, has 
completed the drug program, needs to have the longer period of 
time out there for supervision, would get more on the high end, 
the 120 or so. Someone who has far lesser need maybe has a 
relatively good plan but needs a little bit of time, make it 30 
days. So it varies----
    Ms. Norton. That's good to have that kind of calibration. 
What you do, of course, if you're talking--when you're talking 
substance abuse, you're talking about almost every inmate that 
comes out of prison. Is there any treatment that's done before 
you get out of prison so maybe some of it's done and Mr. Ormond 
won't have--will only have a kind of mopping up job to be done, 
because while you had them in there for 10 years you took care 
of it?
    Ms. Sawyer. Absolutely. I referenced in my opening comments 
that we have residential drug treatment available for every 
inmate who has a drug treatment need and who will volunteer for 
treatment, and right now we're hitting 92 percent of those who 
have a drug treatment need, which is roughly a third of our 
total population. The percentage may be a little higher than 
that for the D.C. inmates coming in.
    We're actually required to do that by statute now. Congress 
requires us and they therefore give us the funds necessary to 
ensure that we have a 9-month residential drug treatment 
program in place for every inmate that we can get into that 
program. But the transition piece into the community is 
critical. We used to do drug treatment years ago. We do it 
early on in their sentence and then think they were cured and 
then we would release them a few years later into the 
community. And once they're back to the old temptations and the 
old frustrations, they fall back into drugs. So what we've done 
now is moved our treatment program toward the end of the 
sentence. You don't get involved in the residential drug 
treatment until the last year or two of your sentence, and the 
6-month transition piece through the halfway house into the 
community where we link them to a drug treatment provider in 
the community, that match is similar to the program we're 
running in the institution so that they're aided through that 
transition when those temptations are much more available to 
them in the community, and that's a critical part of our 
program.
    Ms. Norton. Let me get straight the ones that have to come 
out, perhaps the risk assessment has been done and they come 
out. Now, those folks have to do the same--have to come in to 
do the same--get the same treatment and get the same services 
to transition that they would get if they were in a halfway 
house. People in the community, you've done the risk 
assessment, those with the least risk are the ones--I 
understand the triage involved here. Those that are the least 
risk are the ones you've had to say, you can go into the 
community because we have no halfway house. I'm trying to find 
now what services are available to that group.
    Mr. Ormond. We provide the comprehensive supervision. We 
also have treatment services for that population. But, again, 
the challenge is often the risk is based upon criminality. 
Addiction is such an interesting animal, if you will, because 
given the best interventions that takes place in the Bureau of 
Prisons, once these men and women come back into the community, 
the whole cycle of addiction can very easily kick in. That is 
why we really need--we try very hard in the Bureau of Prisons 
policy basically to say that for those substance abusers that 
are going through that 9-month program, that they go through at 
least 120 days of halfway house transition, because the science 
tells us that's very critical.
    So, again, we provide interventions if they do not go to 
the halfway house, but it's not the ideal way to deal with the 
population.
    Ms. Norton. And I see you're making another important 
distinction, because the risk assessment has to be based on 
criminality, but the greater risk may be----
    Mr. Ormond. The addiction.
    Ms. Norton. Addiction--vulnerability to addiction. So we 
really do have a problem here.
    This leads me to the Halfway Back notion, which I like a 
lot. Instead of, you know, saying you've got a minor or even 
something more important as a violation and back you go to the 
pen, excuse me, there is a Halfway Back house. I'd like--
apparently with graduated sanctions?
    Mr. Ormond. Yes.
    Ms. Norton. I'd like to know how effective that is in 
decreasing recidivism, what I think the average person out here 
in the public would call recidivism; namely, the need to be 
reincarcerated?
    Mr. Ormond. We have found it to be very effective. The 
people that have gone through those interventions, they--
positive tests have been reduced by 50 percent. It's been very 
dramatic, and, again, we are using positive drug tests, and 
we're testing people very rigorously to see if they are 
continuing to use drugs. It's also a significant cost 
avoidance, because now the U.S. Parole Commission does not have 
to get involved. The Bureau of Prisons will not have to bring 
these people back into the prison. The D.C. jail will not have 
to intake them, because we are able to manage them with 
violations prior to actual convictions and other addresses----
    Ms. Norton. Wait a minute. Is there enough room for people 
to go to the Halfway Back houses?
    Mr. Ormond. There is not enough room at this point, because 
often we have to use the same vendors that are providing 
halfway houses. Now, we are in a position now to expand it to 
100 additional beds with a reentry facility at Karrick Hall. 
The President put moneys in the budget to do the capital 
development. This program has shown an 85 percent improvement 
in the results over the last 4 years. It's rigorously evaluated 
through the University of Maryland. However, that is also being 
impacted by the D.C. Commission and our inabilities to expand 
services in that census tract near D.C. General Hospital. So, I 
mean, we have various resources and initiatives, but a lot of 
it is being impacted at this point, and it is currently in our 
2002 budget submissions that we can expand the capacity for 
Halfway Back.
    Ms. Norton. So you--the President has put in his budget 
funds to allow--now, this is a residential--this is a 
residential facility?
    Mr. Ormond. Residential Half Back, yes.
    Ms. Norton. So your Half Back, you're back incarcerated 
because you can't--you have to get more treatment without going 
back and forth to the community?
    Mr. Ormond. Exactly.
    Ms. Norton. And you are--you have 100-bed facility funding 
if you can find a residential facility in the District of 
Columbia?
    Mr. Ormond. Yes. We actually have been in a facility on the 
grounds at D.C. General Hospital. We want to expand that 
facility to accommodate----
    Ms. Norton. By 100 beds?
    Mr. Ormond. To 100 beds, yes.
    Ms. Norton. How many beds now?
    Mr. Ormond. Twenty-one beds now.
    Ms. Norton. And you need 100 beds in order to take care of 
all the folks that----
    Mr. Ormond. That would probably allow us to take care of 
about 80 percent of the need.
    Mr. Ormond. And do they now just go back to prison? What do 
you do since you don't have the beds?
    Mr. Ormond. We have the contracts but many of those 
people--that's why that whole recidivism question is 
interesting. A lot of those people are going back to jail now, 
because we do not have the option, because the judges often 
want them to be taken off the community for public safety 
reasons. But, again, that facility is being impacted by the 
current D.C. Commission and our inabilities to do any further 
improvements in that census tract.
    Ms. Norton. Well, you know, if those folks have to go back 
to prison because of violations which otherwise would not allow 
that, we may be back to the situation we have with the Parole 
Board.
    Mr. Reilly, I don't know if you were on the Commission at 
the time, but I woke up one morning and this is how I found it 
out. I may ask that--I may hope that none of us find out things 
like this through the Washington Post, where we found out 
through the Washington Post that there were people waiting to 
be released by the Parole Commission and were ready to be 
released, but because of the volume of cases, there was nothing 
you could do, because you had to be very careful in allowing 
people to get out of prison.
    So here you might have somebody for months, ready to be 
released, unable to get out, not because of anything he did. In 
fact, he's prepared himself for release. He's got his head on 
straight about never coming back here, and he is told, I'm 
sorry. There's paperwork at the Parole--it's a paperwork 
problem at the Parole Commission.
    I was so astounded, I called the Deputy Attorney General, 
Mr. Clark, had Mr. Clark bring in everybody, the Parole--
everybody that had anything to do with inmates. We set up this 
working group, and I must say this is another success story, 
because they--working with you, the--and only through the 
halfway house breakthrough, this terrible situation where 
somebody gets his anger back because the bureaucracy is keeping 
him in there, not his own conduct, that breakthrough took 
place.
    What I have to ask you, Mr. Reilly, is are we in any danger 
that we will have a backlog of people who BOP is ready to 
release but you can't release because of paperwork 
difficulties? Are we in any danger of going back to that 
recidivism?
    Mr. Reilly. Thank you, Congresswoman Norton. I think we've 
all obviously joined together in trying to develop some 
strategies and to address and plan in advance for the future. 
Obviously with what's going to occur--and we all know that--we 
are working together to try to avoid just what you've outlined 
here a moment ago, and much of what happened with the Parole 
Commission--and I don't want to go back and regress. I want to 
progress and go forward--was a result of a lot of things that 
occurred, but I'm not going to get into those today at this 
hearing.
    Ms. Norton. We know there were a lot of agencies involved.
    Mr. Reilly. There were a lot of things involved.
    Ms. Norton. Well, it certainly wasn't just the Parole 
Commission.
    Mr. Reilly. You're right.
    Ms. Norton. I'm quite aware of the role of the Department 
of Corrections. That's why everybody was in the room and 
everybody had a hand I'm sure in straightening it out. But I 
just want to make sure that--because I don't know if your 
budget has been increased. I don't know if the problems that 
led to that are now under control, and that's really what I'm 
asking.
    Mr. Reilly. Well, I'm happy to report that the budget at 
least from the House of Representatives has been approved by 
the--or at least the markup and so on has been approved by the 
House committee, and it will have a very positive effect on the 
Parole Commission's ability to fulfill its mission and 
obligation.
    Obviously there are a lot of things that resulted in our 
not being prepared when that transition took place in the first 
place, and I intend to see that corrected. It was totally 
unacceptable to me, and I am correcting it. And I'm hopeful 
that we can avert and avoid what has happened in the past. 
There is always the danger, obviously, of something falling 
apart, because if we don't all work together in concert--and we 
obviously could have a real crisis develop again--but in view 
of the great partnership that is existing and that I've seen, I 
think we can avoid that and that we can--if we can get the 
halfway house placements, and some of those things will help 
and assist us in placing those offenders who don't belong in an 
institution, it obviously will lessen the burden on all of us 
and we hope we can return them then to society and back into 
the community as productive citizens. I'm convinced we can do 
that by working together.
    Ms. Norton. Can I ask one question of Mr. Clark, please.
    Mr. Clark, you said that there was no shortage of beds for 
females. I'd like to know why, and I'd like to know whether 
some of those beds can be used for males in the halfway houses.
    Mr. Clark. I'm not sure why there's no shortage. It just 
seems that neighborhoods seem to be more willing to accept the 
female halfway houses. In fact, the large one in Northeast, the 
larger one, which I believe has maybe 60 or 70 beds, recently 
had a charter school come in and move in right next door, right 
across the alley from them voluntarily, and they have a nice 
partnership going right now. So it just seems----
    Ms. Norton. It's just great to hear that kind of testimony. 
That is the rarest kind of testimony. Go ahead. I'm sorry.
    Mr. Clark. Well, that was my----
    Ms. Norton. Well, I mean, are there excess--you can't put 
women in with men. That I would not--with people coming out of 
prison, I would not advise that, but I would ask whether or not 
there is any possibility that some of the--some of the 
facility--if there was--for example, if there were excess beds 
in a number of different facilities for women, one might move 
all the women into one or two facilities, and then you'd have a 
place for men, if that could be done.
    Mr. Clark. There are only--oh, excuse me.
    Ms. Norton. Go ahead.
    Mr. Clark. There are only two facilities, both run by the 
same vendor, Reynolds and Associates, the one in Northeast, and 
a small facility in Northwest around DuPont Circle. And 
actually I asked the same question of the owner of that company 
within the last couple of weeks, and he's very reluctant to 
change the mission of either one of them.
    Ms. Norton. The neighborhood might become upset if that 
were to happen.
    Finally, may I just say to you, Mr. Clark, that you 
suggested that the Criminal Justice Coordinating Council might 
be the best, I think functionally you're right, best group to 
activate the notion that I spoke about of some kind of working 
group, I called it emergency transition, and you said they 
would--that the Criminal Justice Coordinating Council would be 
the logical group. It would be, but you also indicate it is not 
fully activated, isn't that right, the Criminal Justice 
Coordinating Council is not fully activated to a point--that is 
to say, it doesn't have its director, it doesn't have all that 
we talked about in our last hearing yet, does it?
    Mr. Clark. It does not have a staff at this point, but it's 
been rejuvenated in terms of having regular meetings and 
rejuvenating----
    Ms. Norton. Mr. Clark, I want you to get together, since 
you are the person we sent in correct the Parole Commission DOC 
problem that we had where people were being held in jail and 
not enough halfway space, would you get together with Ms. 
Kellems--all I want to make sure doesn't happen is that we wait 
for something to be staffed. What I had in mind and what I 
asked you all to report back on was something that would be 
staffed so that there would be pending a plan, a group of 
experts from the relevant--staff experts from the relevant 
agencies working on the problem that is upon us, which is you 
got 500 beds and you got 2,500 people coming at you. We can't 
wait until D.C. gets a plan in order to do that. And some 
sections of the Criminal Justice Coordinating Council or 
whatever you and Ms. Kellems decide, I want you to get back to 
us in 2 weeks about what it is you decided to do with respect 
to that, since I heard two different ideas come forward.
    Thank you very much, Madam Chair.
    Mrs. Morella. If there were any other questions, we'll 
submit them to you in writing and ask for your response. It's 
been a long hearing but I think it's been a very important one. 
I think that we discussed a lot: Coordination, cooperation, 
reporting back, making sure that we move ahead with what needs 
to be done with regard to community safety and actually the 
safety of those people going back into the community who have 
been a part of our corrections system. So I want to thank all 
of you, thank you in the second panel, John Clark, Dr. Sawyer, 
Chief Ramsey, Chairman Reilly, Director Ormond and Deputy 
Director Anthony. And I want to commend my staff, Russell 
Smith, majority staff director, and Rob White, Matthew Batt, 
Shelly Kim, Heea Vazirani-Fales; the minority side Jon Bouker 
and Jean Gosa; and all of you for being here today too.
    So the Subcommittee on the District of Columbia now 
adjourns.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]


</pre></body></html>
